  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AED                   Afghanistan Engineer District
ANA                   Afghan National Army
CPPC                  Cost-Plus-a-Percentage-of-Cost
DFARS                 Defense Federal Acquisition Regulation Supplement
DoD IG                Department of Defense Inspector General
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
IDIQ                  Indefinite-Delivery, Indefinite-Quantity
IGCE                  Independent Government Cost Estimate
OMC-A                 Office of Military Cooperation-Afghanistan
PNM                   Price Negotiation Memorandum
SIGIR                 Special Inspector General for Iraq Reconstruction
TAC                   Transatlantic Programs Center
USACE                 United States Army Corps of Engineers
USCENTCOM             United States Central Command
               Department of Defense Office of Inspector General
Report No. D-2006-007                                                     October 14, 2005
   (Project No. D2004-D000CF-0186)

                   Contracts Awarded to Assist the Global War
                         on Terrorism by the U.S. Army
                              Corps of Engineers



                                 Executive Summary

Who Should Read This Report and Why? Those involved in planning and buying
construction services in Afghanistan should read this report. The report provides insight
on actions taken by U.S. Army Corp of Engineers personnel regarding the planning,
design, construction, and contracting procedures for creating facilities for the Afghan
National Army, as well as construction projects in the U.S. Central Command area of
responsibility.

Background. Following the terrorist attacks of September 11, 2001, the United States
determined that those responsible for the attacks were receiving safe harbor in
Afghanistan. On September 19, 2001, the U.S. Central Command began military
operations against Al Qaeda and the Taliban government in Afghanistan. In February
2002, the Commanding General of the U.S. Central Command stated that the Taliban no
longer held power in Afghanistan. On March 25, 2002, the Secretary of Defense stated
that the U.S. and coalition forces would help create and train the Afghan National Army
once funds were identified, but stated that the size of the Afghan National Army would
be proportionate to available funds.

The U.S. Central Command was responsible for conducting military and humanitarian
operations in Afghanistan and requested that the Transatlantic Programs Center, U.S.
Army Corps of Engineers, Winchester, Virginia, develop contracts to design and build
facilities in the U.S. Central Command area of responsibility, including Afghanistan. In
December 2002 and January 2003, the U.S. Army Corps of Engineers awarded two
design and build contracts for construction projects in Afghanistan, including facilities to
house and support the Afghan National Army. The first was a letter contract and the
second was an indefinite-delivery, indefinite-quantity contract which used undefinitized
task orders. Since then, the U.S. Army Corps of Engineers awarded 13 contracts from 2
multiple awards for construction projects within the U.S. Central Command area of
responsibility. Our audit focused on these 15 contracts. We reviewed the letter contract
valued at $38.2 million and 36 task orders from the 14 indefinite-delivery, indefinite-
quantity contracts valued at $743.8 million.

Results. DoD and the U.S. Army Corps of Engineers did not adequately design and
construct facilities in Afghanistan. Furthermore, the U.S. Army Corps of Engineers did
not properly execute the contracts. Specifically, we found that:
       •   Design and construction requirements were unclear and kept changing, which
           increased the cost of the work, and standards for Afghan construction were
           not formalized.

       •   The Transatlantic Center, U.S. Army Corps of Engineers inappropriately used
           Army operations and maintenance funds for a construction project for U.S.
           troops valued at $35.2 million, a potential violation of the Antideficiency Act.

       •   The U.S. Army Corps of Engineers had two contracting offices awarding
           contracts pertaining to the same projects. Although several options were
           available, the U.S. Army Corps of Engineers still placed requirements (valued
           at $19.7 million) with a single contractor when more competitive contracts
           were available.

       •   Transatlantic Center, U.S. Army Corps of Engineers contracting officials
           permitted out-of-scope items on one contract.

       •   The Transatlantic Center, U.S. Army Corps of Engineers improperly awarded
           task orders without clearly describing the work to be performed and without
           negotiating a fair and reasonable price prior to a contractor beginning work.
           Furthermore, contracting personnel maintained that these contracts were firm-
           fixed-price contracts, but the contracts gave the contractors an incentive to
           increase costs.

As a result of all these issues, no assurance existed that DoD received fair and reasonable
prices or the best value for work performed.

We recommend that the Commander, U.S. Army Corps of Engineers terminate Contract
DACA78-03-D-0002 and use the 10 contracts in place under a multiple award
mechanism to fulfill reconstruction requirements in Afghanistan. We recommend to the
Commander, U.S. Army Corps of Engineers that it develop standard sets of designs for
Afghan National Army facilities that are being repetitively constructed in Afghanistan
and utilize those designs for future construction of like facilities. We also recommend
that the U.S. Army Corps of Engineers request that the Defense Contract Audit Agency
conduct a review of costs for Contract DACA78-03-D-0002. In addition, we recommend
that the Commander, U.S. Army Corps of Engineers initiate a preliminary review to
determine whether the use of Army operations and maintenance funds for a construction
project was improper and resulted in an Antideficiency Act violation in accordance with
DoD 7000.14-R, “Financial Management Regulations.” See the Finding for detailed
recommendations.

Management Comments and Audit Response. The comments from the Deputy
Commander, U.S. Army Corps of Engineers were partially responsive. The Deputy
Commander nonconcurred with the recommendation to terminate Contract No.
DACA78-03-D-0002 and stated that it was still more advantageous to use this contract
under certain circumstances. The Deputy Commander met the intent of our
recommendation to formalize and develop a design standard for all Afghan National
Army facilities being repetitively constructed. The Deputy Commander stated that
established standards are now in place and experience little change except for
incorporating lessons learned. The Deputy Commander did not address the
recommendation to request that the Defense Contract Audit Agency conduct a review of
the costs associated with Contract DACA78-03-D-0002. The Deputy Commander


                                             ii
nonconcurred with the recommendation to initiate a preliminary review to determine if
the use of operations and maintenance funds for task order 14 from Contract
DACA78-03-D-0002 resulted in an Antideficiency Act violation. The Deputy
Commander stated that the Transatlantic Programs Center, Winchester, Virginia, did not
engage in illegal project splitting, and did not exceed statutory thresholds for use of
operations and maintenance funds.

We believe that the U.S. Army Corps of Engineers should stop using Contract No.
DACA78-03-D-0002 because the awardee, Contrack International, Inc., is 1 of 10
contractors under the multiple award contract mechanism and any requirement placed on
the single award contract can easily be placed on the multiple award contract where all
10 contractors should have a fair opportunity to obtain the business. We also believe that
the U.S. Army Corps of Engineers should initiate a preliminary review of task order 14
because the project was improperly split to avoid using military construction funds. We
request that the Deputy Commander, U.S. Army Corps of Engineers reconsider his
position and provide additional comments to Recommendations 1., 3., and 4. by
November 14, 2005. See the Finding section of the report for a discussion of the
problems noted and the Recommendations section of the report for a discussion of the
management comments as it applied to the recommendations. Also see Appendix F for a
discussion of the management comments as they applied to the finding, and see the
Management Comments section of the report for the complete text of the comments.




                                            iii
Table of Contents

Executive Summary                                                            i

Background                                                                  1

Objectives                                                                  3

Finding
     U.S. Army Corps of Engineers Contract Management for Construction in
           U.S. Central Command Area of Responsibility                       4


Appendixes
     A.   Scope and Methodology                                             33
     B.   Prior Coverage                                                    35
     C.   Summary of Contracts Reviewed                                     37
     D.   Summary of New Requirements                                       38
     E.   Questionable Items from Contract DACA78-03-D-0002                 40
     F.   Management Comments to the Finding and Audit Response             41
     G.   Report Distribution                                               49


Management Comments
     U.S. Army Corps of Engineers                                           51
Background
    The U.S. Central Command (USCENTCOM) is a unified command and its
    geographic area of responsibility stretches from the horn of Africa to Central
    Asia. As a result, USCENTCOM is responsible for conducting military and
    humanitarian operations in Afghanistan. The U.S. Army Corps of Engineers
    (USACE) manages and designs the construction of military facilities for the Army
    and Air Force in the United States and around the world. The Transatlantic
    Programs Center (TAC), a subordinate element of USACE, is responsible for
    providing these same services to the Army and Air Force in the Middle East,
    Africa, Russia, and the Central Asian states. To accomplish this mission, TAC
    awarded and administered contracts for the reconstruction of military facilities in
    Afghanistan.

    Afghanistan Training and Reconstruction Mission. In February 2002
    USCENTCOM reported to Congress that the Taliban government no longer held
    power in the country and in March 2002 the Secretary of Defense announced that
    U.S. and coalition forces would help to create and train the Afghan National
    Army (ANA).

    Specifically, on March 25, 2002, the Secretary of Defense reported that plans
    were underway to train the ANA. The Secretary also stated that DoD was trying
    to obtain funds for this effort and the size of the ANA would be proportionate to
    the funding. In April 2002 the President issued a Presidential Determination that
    stated assistance to Afghanistan is in the national interest of the United States.
    Further, he stated that an unforeseen emergency existed that required immediate
    military assistance to the government of Afghanistan for purposes of training and
    equipping the Afghan national armed forces. On May 21, 2002, the Commander
    of Operation Enduring Freedom announced that the United States had begun
    training Afghan soldiers. In June 2002 a forward engineer support team from
    USACE, already supporting USCENTCOM in Afghanistan, developed an initial
    plan for rebuilding the ANA basic training facility.

    Because the forward engineer support team realized that the task of building
    brigade compounds to house the Afghan National Army was a much larger
    project than they were organized to accomplish, the mission was assigned to
    TAC. As a result, in September 2002, TAC deployed an integrated team of
    engineers, architects, cost analysts, and contracting personnel to Afghanistan.
    Because the ANA was being initiated from scratch, one battalion was trained at a
    time. The objective of USCENTCOM and the Office of Military Cooperation-
    Afghanistan (OMC–A) was to have the barracks ready as battalions graduated.
    OMC-A is responsible for training the ANA and works with the government of
    Afghanistan and the international community to reconstruct the Afghan security
    and defense sectors. Initially, TAC developed plans to house three brigades. A
    brigade consists of 3,000 soldiers (600 troops per battalion and 5 battalions per
    brigade). The initial locations for the brigades were existing facilities that were in
    poor condition from age and U.S. bombardment. As a result, most work was new
    construction with some renovation of existing facilities. The initial mission of
    TAC was to assist OMC-A in:



                                          1
       •   providing master plans, including phasing plans and costs, for
           facilities to house graduating battalions of the ANA;

       •   assessing the Ministry of Defense engineering and construction
           capabilities;

       •   assessing the capabilities of local contractors; and

       •   obtaining information on locally available materials, equipment, and
           supplies.

According to TAC personnel, when they arrived in September 2002, at least two
battalions had already graduated, and since there were no facilities to house them,
some of the recently graduated recruits were leaving and returning to warlords.
TAC personnel also determined that the project to house the ANA was already 6
months behind schedule. It was continuing to get behind because one recruit
battalion graduated nearly every month.

Facility Specifications. TAC initially assessed the existing facilities where the
brigade compounds were to be constructed. Because no designs existed, the TAC
architect developed floor plans for facilities associated with a brigade compound
(headquarters buildings, barracks, health centers, training rooms, water treatment
plant, power plant, etc.). TAC worked with OMC-A personnel and Afghan
Ministry of Defense personnel during this time in assessing the building
requirements for the ANA. TAC also performed market research in Kabul,
Afghanistan, to ascertain the type, quality and quantity, and cost of building
material available locally. In addition, TAC assessed the quality and size of the
local labor market.

TAC personnel stated that the design criteria for the facilities had to be
sustainable by Afghans after construction was completed. The Afghan-sustainable
design criteria included using systems and materials that Afghans can fix,
maintain, use, or have access to after the United States leaves. According to
TAC, time was of the essence because the project was already behind schedule.
After the initial assessment, and funds for reconstruction became available, TAC
awarded two contracts for the initial efforts.

Contracting in Afghanistan. In a November 1, 2001, memorandum entitled
“Posturing for a Wartime Environment,” the Acting Assistant Secretary of the
Army for Acquisition, Logistics, and Technology discussed the imperative nature
of timely contracting to provide the United States Armed Forces the capabilities
needed to successfully defeat terrorists. The Assistant Secretary stated that
critical contract requirements in support of the anti-terrorism war effort should be
accorded the highest priority. Furthermore, the Assistant Secretary stated that
DoD had to be aware that any established “need by” dates be met, and when
mission requirements were of such a critical time-sensitive nature and mainstream
contracting approaches were not feasible, other contracting methods could be
used. Two such methods the Assistant Secretary stated were awarding contracts
under limited competition, citing “unusual and compelling urgency,” or awarding
undefinitized contractual actions.



                                     2
            TAC Contracts. In December 2002, TAC awarded letter Contract
    DACA78-03-C-0009 to Perini Corporation for design and construction services
    for one brigade facility in Afghanistan. Then in January 2003, it awarded
    contract DACA78-03-D-0002 to Contrack International, Inc., as an indefinite-
    delivery, indefinite-quantity (IDIQ) contract for design and construction services
    covering all of Afghanistan. As specific requirements or projects were identified,
    task orders were awarded to Contrack International under this contract but the
    details of the task orders were undefinitized. Contract DACA78-03-D-0002 was
    awarded based on full and open competition and Contract DACA78-03-C-0009
    was awarded based on limited competition.

           In March 2003, TAC awarded a limited-competition multiple award
    contract to three contractors for design and construction services in the
    USCENTCOM area of responsibility. TAC cited unusual and compelling
    urgency for not fully competing this multiple award contract, and awarded the
    contracts for 1 year until a fully competed multiple award contract was put in
    place. According to TAC, this contract was awarded to handle mostly
    requirements in Iraq, but was used in other areas of the USCENTCOM area of
    responsibility. Then in January 2004, TAC awarded a multiple award contract to
    10 contractors under full and open competition procedures. The scope of these
    contracts was also for design and construction services in the USCENTCOM area
    of responsibility.

             Afghanistan Engineer District Contracts. TAC initially operated an
    area office in Kabul, Afghanistan, to assist OMC-A with projects for ANA. In
    addition to assisting with ANA, USACE also provided assistance to
    USCENTCOM and the U.S. Agency for International Development for other
    construction projects. In order to consolidate all USACE activities, the
    Afghanistan Engineer District (AED) became operational in March 2004. This
    organization is no longer part of TAC, and has its own contingent of personnel
    that is composed of USACE personnel. AED personnel, including contracting
    officers, are assigned to AED on temporary duty for approximately 6-month
    intervals. Besides taking over the management of Contract DACA78-03-D-0002
    from TAC, AED has awarded at least seven contracts, including five as part of a
    multiple award contract, for design and construction services in Afghanistan.

Objectives
    The objectives of this audit were to examine contract requirement determination
    procedures, appraise the validation of contract requirements, and determine
    compliance with the contract award procedures of the Federal Acquisition
    Regulation (FAR). See Appendix A for a discussion of the scope and
    methodology. See Appendix B for prior coverage related to the objective.




                                        3
           U.S. Army Corps of Engineers Contract
           Management for Construction in U.S.
           Central Command Area of Responsibility
           DoD and USACE did not adequately design and construct facilities in
           Afghanistan, and USACE did not effectively execute the contracts
           awarded for these requirements. Specifically,

                  •   Design and construction requirements were unclear and kept
                      changing, which increased the cost of the work, and standards
                      for Afghan construction were not formalized.

                  •   The Transatlantic Center, U.S. Army Corps of Engineers
                      inappropriately used operations and maintenance funds for a
                      construction project for U.S. troops valued at $35.2 million, a
                      potential violation of the Antideficiency Act.

                  •   Communication problems existed between USACE personnel
                      in Afghanistan and Winchester, Virginia.

                  •   The U.S. Army Corps of Engineers had two contracting offices
                      awarding contracts pertaining to the same projects and area of
                      responsibilities. Furthermore, the U.S. Army Corps of
                      Engineers still placed requirements (valued at $19.7 million)
                      with a single contractor when more competitive contracts were
                      available.

                  •   The Transatlantic Center, U.S. Army Corps of Engineers
                      contracting officials permitted out-of-scope items on one
                      contract.

                  •   The Transatlantic Center, U.S. Army Corps of Engineers
                      improperly awarded task orders without clearly describing the
                      work to be performed and without negotiating a fair and
                      reasonable price at the outset. Contracting personnel
                      maintained that these contracts were firm-fixed-price contracts,
                      but the contracts gave the contractors an incentive to increase
                      costs.

           As a result, there is no assurance that DoD paid fair and reasonable prices
           for work performed. Furthermore, contract changes to the scope of work
           unnecessarily increased the cost of construction.


Contracts Awarded for USCENTCOM Area Construction
    We reviewed 15 contracts valued at $782 million for design and construction
    services within the USCENTCOM area of responsibility. All contracts and task


                                        4
     orders were awarded by TAC, and modifications were awarded by either TAC or
     later by AED. The 15 contracts consisted of:

            •   1 letter contract with 14 modifications that included 7 change orders
                ($38.2 million) (Contract DACA78-03-C-0009);

            •   1 firm-fixed-price IDIQ contract and 13 undefinitized task orders and
                1 definitized task order ($183.6 million) (Contract DACA78-03-D-
                002);

            •   3 IDIQ contracts and 6 task orders ($88.3 million) awarded as a
                limited-competition multiple award contract mechanism; and

            •   10 IDIQ contracts and 16 task orders ($471.9 million) awarded as a
                fully competed multiple award contract mechanism.

     Scope of Work. All contracts were for design and construction services, and
     included new construction, renovation, repair, and operations and maintenance.
     Contract DACA78-03-C-0009 was for construction of one brigade facility at
     Pol-e-Charki, Afghanistan, and Contract DACA78-03-D-0002 covered the entire
     country of Afghanistan. The multiple award contracts geographically covered the
     entire USCENTCOM area of responsibility. Of the $782 million we reviewed,
     $585 million was for design and construction services in Afghanistan and
     $197 million was for design and construction services in other countries within
     the USCENTCOM area of responsibility, not including Iraq. Of the $585 million
     for work in Afghanistan, $473.1 million was for construction of ANA facilities.
     See Appendix C for a summary of all contracts we reviewed.


Design and Construction of ANA Facilities and Contract
  Execution
     TAC did not adequately design and construct facilities for the ANA facilities. By
     the time TAC arrived in Afghanistan, construction of ANA facilities was already
     two months behind schedule. This urgent situation forced TAC to quickly award
     the initial contracts, which were poorly executed. Specifically the contract
     requirements were unclear and kept changing, Afghan construction standards
     were not formalized, the wrong type of funds were used, and there was a lack of
     communication between USACE personnel in Afghanistan and the United States.

     In addition, USACE did not adequately plan the follow-on contracts. Two
     USACE contracting offices were awarding contracts for the same type work and
     USACE was not making optimal use of a multiple award contract mechanism.

     FAR 7.104(a) states that:
                acquisition planning should begin as soon as the agency need is
                identified, preferably well in advance of the fiscal year in which
                contract award or order placement is necessary. In developing the
                plan, the planner shall form a team consisting of all those who will be


                                              5
           responsible for the significant aspects of the acquisition, such as
           contracting, fiscal, legal, and technical personnel.

Planning for Rebuilding the ANA. On March 25, 2002, the Secretary of
Defense stated that the United States and other coalition forces will help to create
and train the ANA. The Secretary estimated that “the size of a national [Afghan]
army would be proportionate to available funds.” As a result, DoD knew in late
March 2002 that it had a role in the creation of the ANA. However, there was
little or no planning for acquisition support to construct facilities to house the
ANA.

USCENTCOM requested in July 2002 that TAC provide assistance to support the
development of the ANA. However, TAC personnel were not deployed to
Afghanistan until September 14, 2002, nearly 6 months after the Secretary of
Defense March 25, 2002, statement about creating the ANA. To make matters
more urgent, Headquarters, USACE stated that the training of ANA troops began
in June or July 2002, and by October 2002, two battalions had already graduated
and required housing. According to TAC personnel some of the ANA soldiers
deserted and returned to the warlords because the newly trained Afghan soldiers
did not have housing.

After assessing the situation in Afghanistan in September and October 2002, the
TAC team concluded that the ANA construction program was at least 6 months
behind schedule. The team concluded that the program would continue to lag
behind because the ANA was in the process of being formed and it was projected
that a continuous stream of one trained battalion would graduate basic training
each month until November 2003 (except December 2002). Consequently, by
November 2003, facilities had to be constructed to house each of these battalions
(approximately 7,800 soldiers) of the ANA. As a result, TAC quickly began
preparing the documentation in order to award a contract to house the soldiers.

There was very little time to plan the construction of the compounds. To begin
the process and be in position to award a contract to construct facilities, the TAC
team had to quickly develop a master plan of the initial three compounds (Kabul
Military Training Compound; Pol-e-Charki, Afghanistan; and Darualaman,
Afghanistan), specifying the facility type and locations on the site for the
facilities. In effect, TAC had approximately 3 months to develop floor plans, site
plans, and develop a contract for construction of a small town, including
infrastructure such as power plants and sewage. The TAC architect began
preparing floor plan diagrams for troop barracks, dining facilities, and
administrative buildings. USCENTCOM should have notified USACE in March
2002 that it required assistance in building facilities for the ANA.

TAC originally planned to award one contract, but because of mistakes TAC
personnel made in preparing the information in the solicitation to the prospective
contractors, it awarded two contracts. One contract was awarded in December
2002 and a second contract was awarded in January 2003. Because the
construction of the compounds was behind schedule, task orders were hurriedly
awarded without fully describing the requirements.




                                       6
Initial Contract Awards. In October 2002, there was a sense of urgency to have
work begin and TAC requested proposals for the reconstruction efforts in
Afghanistan on a cost-plus-fixed-fee and IDIQ basis. The scope of work was for
a design and build contract under which design and construction would be
performed on individual task orders including new construction; renovations;
alterations; improvement; repairs; minor construction including site work, utility,
and other associated work necessary for a fully functional facility; and roadway
work at various locations within Afghanistan. The contractor was also to provide
limited operations and maintenance support for power plants, water and
wastewater treatment plants, sewage treatment, and associated distribution
systems at various military installations. The contract was for a base year and 4
option years totaling $950 million and the request for proposals were issued under
full and open competition. Eight contractors provided bids, of which six were
determined to be in the competitive range.

However, while analyzing the proposals, a TAC cost analyst stated that a cost
realism analysis of the contractors’ proposals could not be performed because the
solicitation and evaluation process was not set up that way. The analyst stated
that the procedures for the evaluation process did not include cost realism, only
reasonableness, and the technical requirements did not match the requirements of
the sample project for which the contractors bid was based on. The contracting
officer also stated that the contractors had problems developing a cost-plus-
fixed-fee proposal for construction because of the circumstances in Afghanistan
(i.e., scope, security, insurance, etc.).

In order to award a contract and begin work, TAC did not further pursue awarding
a cost-plus-fixed-fee contract, but instead requested that the six contractors that
were determined to be within the competitive range resubmit their proposals
under a firm-fixed-price basis. Four contractors submitted bids and Contract
DACA78-03-D-0002 was eventually awarded on January 17, 2003, to Contrack
International, Inc., as a firm-fixed-price IDIQ contract. Task orders were
awarded as specific work requirements were identified.

Because TAC did not adequately plan the first contract and did not award it on a
timely basis, and work had to begin at one facility, TAC performed a limited
competition for the second contract and sent a second request for proposal to the
same six contractors determined to be in the competitive range for the first
contract. All six contractors provided bids. The scope for this contract was more
specific and was for construction efforts to house ANA troops at a compound at
Pol-e-charki, Afghanistan. The requirement was for construction of 33 facilities
including barracks, a dining facility, a power plant, a water treatment facility, and
a wastewater treatment facility with completion by June 2003. TAC awarded
Perini Contract DACA78-03-C-0009 on December 31, 2002, and the selection
criteria was based on best value. The contract was issued as a letter contract and
the price was definitized in March 2003. However, this firm-fixed-price contract
also underwent revision and grew from $18.9 million to $38 million. TAC’s
inability to promptly award the first contract caused the need for this letter
contract to be awarded.

Contract Execution. After the contracts were awarded, the requirements were
poorly executed. Requirements were unclear and kept changing, Afghan


                                      7
construction standards were not formalized, and wrong funds were used on one
task order valued at $35.2 million, potentially violating the Antideficiency Act.
In addition, there was a lack of communication between USACE personnel in
Afghanistan and the United States.

        Unclear and Changing Requirements. Prices were not fixed at the
outset because TAC awarded most work as undefinitized actions and did not
definitize the actions in accordance with FAR and Defense Federal Acquisition
Regulations Supplement (DFARS). Furthermore, the requirements were not
clearly understood and underwent almost constant change.

For example, in task order 2 under Contract DACA78-03-D-0002, Contrack
began design and construction work on the Kabul Military Training Complex on
April 4, 2003, for $14.5 million. Initially, this requirement was for construction
of facilities to house U.S. military personnel training the ANA. TAC justified
using an undefinitized contract action because work had to begin immediately so
that work was completed by December 2003. The TAC contracting officer
acknowledged that she knew that this was not the entire requirement and that the
work could not be completed by December, but that OMC-A and the USACE
personnel in Afghanistan said that work had to begin. The original scope of work
was for the design and renovation of 1 facility and construction of 16 structures.
The table below illustrates the difference between the original requirement and
how it appears after 23 modifications in September 2004.

              Table 1. Changing Requirements of Task Order 2

                               Type of Work

                      Renovation     Construction    Task Order Value

  Original
  Requirement              1              16              $14.5 million

  Current
  Requirement              13             22              $48.1 million




This Task order was modified on a continuous basis and through modification 23
issued in September 2004, the task order consisted of renovating 13 buildings,
new construction of 22 structures, and demolishing 5 buildings. Moreover, the
requirements for construction of 9 of the original 16 items were deleted after work
began and requirements for construction of 2 items were added and deleted
between the original requirement and modification 23. There was never a firm
requirement, not even 17 months after work began. As of October 2004, the
value of this task order was $48.1 million and was approximately 88 percent
complete.



                                     8
Confusion and indecisiveness caused delays in the performance of the task orders.
For example, Contract DACA78-03-D-0002, task order 7 was a 6-month task
order for operations and maintenance services with options for two additional
6-month periods. However, the Afghanistan Area Office (It later became the
AED), TAC, and Contrack disagreed on what work was to be accomplished under
this task order. As a result, USACE contracting personnel at the Afghanistan
Area Office refused to pay Contrack because they believed that it was not
performing the required work. Contrack then presented information to the
contracting officer at TAC insisting it had performed operations and maintenance
services. The TAC contracting officer determined that Contrack would be paid
for the work it had performed. Contrack agreed in negotiations to additional
items in the scope of work and 2 more months of performance for the same price
as its final proposal. After sending this task order to AED, problems continued.
According to an AED contracting officer, AED did not receive a copy of the
scope of work when it was originally awarded:
           Because of this I [the AED contracting officer] strongly suspect that we
           [the government] paid for some things two and three times i.e., field
           trailers.

The lack of clearly defined scopes of work contributed to the confusion and
indecision in performance of this task order.

Contract DACA78-03-C-0009, modification 5 illustrated another example of
changing the requirement. The contract was to design and construct the first
brigade compound at Pol-e-charki. Modification 5 definitized a portion of the
work. However, contracting officials noted that the progress of the work had
been delayed because the Government could not decide where it wanted to locate
a power supply building. The price negotiation memorandum (PNM) stated that
the contractor provided a printed chronology of events that documented the
relocation of the power supply building. The PNM stated that "the chronology
demonstrates the start-stop-relocate series directed by the Government or military
forces that caused the delayed start, which will in-turn, delay the completion."
The following lists a chronology of site changes to the power supply building:

       •   January 6, 2003: The building was sited on the east side of the base.
       •   January 15, 2003: The building was sited to the west side of the base.
       •   March 8, 2003: The building was sited to the east side of the base.
       •   March 31, 2003: The building was moved 150 meters west to save the
              concrete slabs.
       •   April 4, 2003: The building was moved back to the location on the
              east side established on March 8, 2003.

Another aspect that prevented effective contract execution was that Afghan
construction standards were not formalized.

         Afghanistan Construction Standards. USACE never formalized the
Afghan building standards that were used in construction of the various ANA
facilities. The TAC architect began preparing floor plans of the various ANA
facilities using construction criteria that were considered to be "Afghan-


                                         9
sustainable." However, the Afghan-sustainable standard was generally
considered to be of lesser quality than U.S. standards and was not specifically
identified.

TAC personnel could not quantify the time or costs of changes made by OMC-A
personnel or USACE personnel in Afghanistan to ANA designs. The TAC
architect stated that as OMC-A and USACE personnel in Afghanistan rotated in,
the new personnel would try changing design layouts to buildings. Some of the
military personnel did not have engineering backgrounds and wanted to change
building layouts. According to the TAC architect, this caused delays to the
project, but he could not quantify the delay.

Furthermore, Contrack International stated that changes occurred as they prepared
the designs and did not track any changes until designs were 100 percent
complete and the task order was definitized. Contrack stated that OMC-A and
USACE personnel in Afghanistan initiated some changes in the field before
definitization and never told the TAC contracting officers. However, Contrack
stated that it did not initiate any of the work, rather the work was requested by the
Government. Contrack stated that it wanted to help the client, and did not want to
stop work for a small amount of money.

Some general changes made to design of ANA facilities included removing
baseboard heating and replacing that with wood-burning stoves, removing air
conditioning from the ANA barracks, and moving toilets so they were no longer
located in the barracks. These changes affected only the first several compounds.
According to the architect, the switch to wood-burning stoves and removing the
air conditioning from the barracks was budget-driven, and the moving of the
toilets was for cultural reasons.

Without established building standards, task order requirements were often poorly
defined and frequently changed. For example, Contract DACA78-03-D-0002,
task order 2 was awarded on April 4, 2003, and was for construction of the Kabul
Military Training Center. The original estimated price, including options, totaled
$17.5 million. The order was modified 23 times and was eventually definitized
for more than $48 million.

Contract DACA78-03-D-0002, task order 4 was for the design and construction
of brigade bed-down facilities for Afghan soldiers at Pol-e-charki, Afghanistan.
It was originally awarded with a not-to-exceed value of $29.5 million. Task order
4 was later modified 11 times raising the total cost to $45.6 million.

USACE must standardize building criteria to the maximum extent possible for
construction in support of the ANA. This would help reduce excessive changes to
task order requirements. Total ANA troop strength is unknown but could total up
to 70,000 troops. Each compound houses approximately 3,000 troops. We were
informed that three compounds are in various stages of completion, and task
orders for four more compounds have been awarded. Thus, several additional
compounds may be needed. Standardized construction requirements are still
needed for ANA construction requirements in Afghanistan. Another task order
was awarded that used the wrong type of funds that may violate the
Antideficiency Act.


                                     10
        Improper Use of Funds. USACE improperly used operations and
maintenance funds for Task order 14 of Contract DACA78-03-D-0002. This
project was funded with FY 2003 Army operations and maintenance funds.

Task order 14 was awarded to Contrack International, Inc., on September 29,
2003, and was for designing and building a pre-engineered metal barracks
complex for U.S. military personnel at Kandahar Airfield, Afghanistan. The
requirement was for 161 and later 168 barracks with bathroom and laundry
facilities. The work began as an undefinitized award for a not-to-exceed amount
of $26 million.

This project was originally planned to be a competitive procurement, but after
FY 2003 operations and maintenance funds became available, the acquisition
strategy of the project was changed because the competitive procurement would
have taken until past the end of the fiscal year. As a result, the project was placed
on a task order on the single award to Contrack International, Inc., using
operations and maintenance funds. The justification to do this was that the U.S.
troops were currently being housed in tents which were in bad shape and would
not last through the winter. Furthermore, the tents were fire hazards and had
recently become infested with mice and now posed a significant health and safety
hazard for the personnel. The U.S. personnel had been housed in the tents for 2
years.

With adequate planning this procurement could easily have been competed
because the condition of living in tents pre-existed and was 2 years old, and DoD
knew that using tents as a housing alternative was temporary. Furthermore, we
believe that Military Construction Appropriations should have been used for this
procurement instead of operations and maintenance funds.

Section 2805(c)(1)(a), title 10, United States Code (10 U.S.C. 2805) allows for
the use of operations and maintenance funds for projects up to $1.5 million
           “in the case of an unspecified minor military construction project
           intended solely to correct a deficiency that is life-threatening, health-
           threatening, or safety threatening,” or

           “$750,000, in the case of any other unspecified minor military
           construction project.”

According to the TAC contracting officer, the justification to use operations and
maintenance funds was that the $26 million project was broken down into phases
of $1.5 million each, which, in the USACE opinion, met the thresholds allowed
under 10 U.S.C. 2805. However, Comptroller General Decision 1991–
[December 24, 1991] B-234326.15, ruled that the Air Force could not split a
requirement or project into smaller projects to meet 10 U.S.C. 2805(c)(1). In
addition, Army Regulation 420-10, “Management of Installation Directorates of
Public Works,” paragraph 4-4a(2) prohibits the subdivision of a construction
project.

The requirement and objective of this task order was to house 4,500 U.S. military
personnel, which consisted of construction of 161 barracks for $26 million.


                                         11
Through modifications the task order was eventually increased to $35 million.
However, contracting officials stated that the task order consisted of seven
separate “phases.” Contracting officials took the position that the $1.5 million
limit could be applied separately to each phase. Thus, the task order included
eight separate $1.5 million line items for “design and construction” of Phases 1
through 7. (There were eight line items instead of seven because, inexplicably,
Phase 6 consisted of two “increments.”) It is our opinion that it was invalid to
divide the project into “phases” and claim that the limitation could be applied
separately to each phase.

The task order also included a $19 million line item for “procurement, delivery
and erection of prefabricated barracks buildings complete with all fixtures,
finishes, electrical, etc.” There was no specific justification for using operations
and maintenance funds for this line item, so we assume that contracting officials
did not consider these costs to be for “construction.” If they had, then the
$1.5 million limitation would have applied. In our opinion, “procurement,
delivery, and erection” of these buildings constitutes construction, and operations
and maintenance funds should not have been used to pay this $19 million. We
believe that the USACE should initiate a preliminary review to determine whether
improper funds were used on this task order.

As mentioned earlier, the task order was originally planned to be a competitive
procurement, but the competition was cancelled so that the order could be
awarded prior to the end of FY 2003 before the operations and maintenance funds
expired. The fact that the order was originally planned to be a competitive award
sometime in FY 2004 shows that it was not truly urgent to award during FY 2003
and was awarded to use expiring funds.

       Communication Issues. A lack of communication between TAC and
USACE personnel in Afghanistan and changing personnel impacted the
construction in Afghanistan.

According to the TAC contracting officer, lack of communication between TAC
and USACE personnel in Afghanistan led to delays in definitizing work. TAC
complained that the contractor reported to them that changes were made to task
orders, rather than being informed by the Government official making the
changes. This is the opposite of how the process should work. USACE personnel
in Afghanistan should have discussed proposed changes to the task order with the
contracting personnel at TAC, and after agreeing to any scope changes, the TAC
contracting officer should notify the contractor of the proposed changes and
request that the contractor prepare a proposal from which a fair and reasonable
price could be negotiated. For example, changes were made in the field to task
order 10 of Contract DACA78-03-D-0002 at a total cost of $130,917. TAC was
not asked to approve the costs of the changes until after the contractor had
completed the work, demobilized from the site, and sent TAC a proposal to
definitize the task order. Basically, TAC was only made aware of the changes
after-the-fact when it received the bill.

Also, USACE personnel in Afghanistan stated that TAC contracting personnel
failed to send pertinent contract documentation for administration purposes. For
example, Contract DACA78-03-D-0002, Task order 7 was for operations and


                                    12
maintenance services at Pol-e-charki, the USACE Compound in Kabul, the Kabul
Military Training Center, and the Palace Compound in Afghanistan. According
to AED personnel, TAC did not send them the task order file that included the
scope of work until after the base period had ended. The work was not definitized
at the time of award and the scope of work was never adequately defined,
resulting in disagreements between Contrack International, AED, and TAC. For
example, AED contracting personnel stated that it was difficult to determine
whether maintenance work under task order 7 should have been covered by
warranty (a previous task order for construction), should have been completed
under the punch list (a previous task order for construction), or was really a
maintenance issue (task order 7). This resulted in continued problems with
payments to the contractor and extended the period of performance and the scope
of work. Former AED personnel believe that the Government may have paid for
some of these same services more than once because they did not have the
original scope of work when the task order was awarded.

       Two Contracting Offices. After AED became a separate office, both
TAC and AED contracting personnel awarded contracts for the projects and did
not make optimal use of a fully competed multiple award contract mechanism.
TAC and AED awarded seven contracting mechanisms with the same or similar
scopes of work and overlapping periods of performance. During this time two
contractors were awarded single contracts to provide design and construction
services and were also awarded design and construction services contracts as part
of a multiple award contracting mechanism. Furthermore, one of the contractors
was performing both contracts at the same time.

For example, Contrack International, Inc. was awarded an IDIQ contract in
January 2003 to provide construction services in Afghanistan. While this contract
was open and Contrack International, Inc. was being awarded work under this
contract, it was also 1 of 10 contractors awarded a contract under a multiple
award mechanism a year later. Furthermore, AED awarded Contrack
International, Inc. two more contracts for design and construction services in
Afghanistan. In total, Contrack International, Inc. was awarded at least four
contracts (two by TAC and two by AED) that are still open and with the same
scope of work.

TAC awarded Contract DACA78-03-D-0002 to Contrack in January 2003 for
design and construction projects in Afghanistan. Task orders were awarded for
this contract as requirements were identified. When AED became a separate
district in March 2004, TAC transferred the entire contract including all task
orders to AED. As a result, AED became responsible for managing and
administering this contract and is continuing to award work under this contract.
Through September 2004, AED awarded three task orders and three subsequent
modifications to those task orders valued at $3.6 million for Contract
DACA78-03-D-0002. AED also awarded 24 modifications to 5 existing task
orders valued at $12.7 million for the contract.

However, in the meantime, TAC awarded a multiple award contract to
10 contractors in January 2004 for design and construction projects in the
USCENTCOM area of responsibility which includes Afghanistan. The 10
contractors are provided a fair opportunity to be awarded task orders and


                                    13
competition occurs among the contractors that provide a proposal. Based on the
competition, TAC then awards the task order. This contracting mechanism is the
most preferable method for the Government, instead of trying to negotiate fair
prices with a single contractor.

Since March 2004, two different USACE contracting offices in two different
locations have been awarding contract actions for work in Afghanistan, and while
projects have been awarded to Contrack without competing the requirement, other
requirements have been competed. OMC-A generated the requirements and
forwarded them to AED. AED then decided whether the requirement would be
awarded to Contrack International, Inc., by AED or whether the requirement
would be sent to TAC to be awarded using the multiple award. We believe that
Contract DACA78-03-D-0002 (awarded to Contrack International, Inc.,) should
be terminated and future requirements be placed on the multiple award contract
vehicle taking advantage of the competition it offers, which is more advantageous
to the Government. Furthermore, in August 2004, AED also awarded a multiple
award contract to five contractors for design and construction services in
Afghanistan. Of these five contractors, two were also awarded multiple award
contracts by TAC. The only difference between the two multiple award
mechanisms is that the mechanism put in place by TAC covers the entire
USCENTCOM area of responsibility, including Afghanistan, whereas the
mechanism put in place by AED covers only Afghanistan.

Continuing to place construction requirements with a single contractor for which
the Government must negotiate defeats the purpose of having 10 contractors in
place to bid for those same requirements. In addition, having two multiple award
contracts in place for the same work duplicates the work of Government
procurement resources. Because the TAC workforce is more stable (currently
AED contracting personnel rotate in and out of Afghanistan approximately every
6 months), TAC contracting personnel should continue to award task orders using
their multiple award contract.
        Optimal Use of the Multiple Award Contract Mechanism. Through
September 2004, work was still being awarded to Contrack International, Inc., on
Contract DACA78-03-D-0002, the single award, even though the fully competed
multiple award contract was in place and available for use. Seventeen
modifications were made to four existing task orders that were awarded to
Contrack on the single award that could have been defined as a new requirement
and awarded using competitive procedures on the multiple award format.
Additionally, four new task orders were awarded to Contrack International, Inc.,
on the single award that could have been competed using the multiple award
contract mechanism.

FAR 15.402 states that competition is the preferred method for contracting
officers to determine that a contract price is fair and reasonable. When change
orders were made to the single award, the Government and Contrack
International, Inc., had to negotiate a fair and reasonable price for the
modification. However, if the requirements were placed on the multiple award
mechanism, competition among the bidders would determine a fair and
reasonable price. Instead of incorporating the new requirement into an existing



                                    14
task order through modifications, USACE should have classified the work as a
separate requirement.

For example, AED awarded four modifications to task order 2 regarding
construction of facilities at the Kabul Military Training Center even though the
multiple award contract was in place and available. The requirements of the
modifications were for building a vehicle maintenance facility ($476,500), a
400-meter jogging track ($163,669), four guard towers ($180,000), and service
entrance power to three buildings ($496,889). Although these modifications were
for work in the Kabul Military Training Center and fit within the general scope of
work for task order 2, these new requirements could have been competed utilizing
the multiple award contract. The modifications were not part of the original
specification of the task order. Moreover, when the task order was originally
awarded, all work was supposed to be completed by January 2004. These
modifications were awarded from 6 to 9 months after the project should have
been completed.

In total, we identified $19.7 million of new requirements added to eight task
orders of Contract DACA78-03-D-0002. Each of these requirements was
awarded after the multiple award contract was in place in January 2004. See
Appendix D for a complete listing of these projects. Continually modifying the
task orders using the single award to Contrack for the new requirements instead
of awarding task orders under the multiple award contract put the Government in
a less competitive environment.

         Benefits of the Multiple Award Contracts. On January 12, 2004, TAC
put the multiple award mechanism in place for a range of construction services
throughout the USCENTCOM area of responsibility. Ten contractors were
awarded contracts. These contracts were for 1 base year and 4 option years. At
that time, TAC had four contract mechanisms in place that could conceivably
have been used for a given project in Afghanistan. At the end of FY 2004,
Contrack’s single award contract (DACA78-03-D-0002) and the 10-contractor
multiple award contract were still active. The multiple award was in its base year,
while Contract DACA78-03-D-0002 was in its first option year. We concluded
that it would be in the Government’s best interest to terminate Contract
DACA78-03-D-0002. Any project that could have been awarded on this contract
could also be awarded using the multiple award. Using the multiple award will
provide a competitive environment for contracting in Afghanistan, thereby
providing potential for Government savings. Our analysis of the multiple award
is presented below.

        Multiple Award Contract Mechanism Summary. TAC awarded 10
IDIQ contracts under a multiple award scenario for a full range of contingency
operations throughout the USCENTCOM area of responsibility on January 12,
2004. While contracting problems existed on the earlier contracts awarded to
Contrack and Perini, this multiple award, when used properly, proved to be an
effective and efficient vehicle for obtaining services in the USCENTCOM area of
responsibility.

These 10 contractors, which included Contrack and Perini, were awarded
contracts after a full and open competition that resulted in 13 bidders. In a


                                     15
multiple award environment, work is assigned to contractors on individual task
orders awarded from the contracts. FAR 16.505 requires that all contractors be
given a fair opportunity to be considered for each task order unless an exception
applies. This allows the Government to award task orders competitively
throughout the course of the contracts. The four exceptions that can be used to
award a task order without giving the contractors a fair opportunity to be
considered are:

           •   the agency need for the supplies or services is so urgent that
               providing a fair opportunity would result in unacceptable delays;

           •   only one awardee is capable of providing the supplies or services
               required at the level of quality required because the supplies or
               services ordered are unique or highly specialized;

           •   the order must be issued on a sole-source basis in the interest of
               economy and efficiency because it is a logical follow-on to an
               order already issued under the contract, provided that all awardees
               were given a fair opportunity to be considered for the original
               order; and

           •   it is necessary to place an order to satisfy a minimum guarantee.

The multiple award contracts enabled contracting officials to efficiently award
competitive task orders. Out of the 16 multiple award task orders reviewed,
valued at $471,915,563, 13 were awarded by giving all 10 contractors a fair
opportunity to be considered. These 13 task orders were all awarded
competitively, with multiple proposals received on 12 of them. Since price was
one of the proposal evaluation factors, price competition existed, and the
Government had reasonable assurance that it had obtained fair and reasonable
prices. The total value of these 13 task orders was $455,676,927 (96.56% of the
total $471,915,563 value of all 16 task orders). These 13 task orders were also
awarded in a timely manner. The average time from the issuance of the Request
for Proposals to the time of task order award was 63.5 days and ranged from 29 to
101 days.

Although the multiple award mechanism was effective when task orders were
competed, there were instances where poor planning caused task orders to be
awarded on a sole-source basis. These task orders lost the benefit of price
competition. One example was task order 7 from Contract W912ER-04-D-0003
with Contrack, valued at $1,398,649. This task order was for a wastewater
treatment facility in Uzbekistan. The requirement was identified in May 2004.
Contracting officials at first made arrangements to issue the requirement as a task
order under Contrack’s single award contract, but in July 2004, AED realized that
the single award contract was only for work in Afghanistan. By then, the
requirement had become urgent, and contracting officials moved the requirement
to the multiple award. They awarded the task order to Contrack noncompetitively
because of the urgency. Had AED contracting officials realized at the time the
requirement was identified that it could not be placed on Contrack’s single award
contract or if this contract was previously terminated once the multiple award



                                        16
contract was in place, USACE would have had time to make it a competitive task
order on the multiple award.

Poor planning caused a noncompetitive award on task order 8 from Contract
W912ER-04-D-0003 with Contrack, valued at $12,392,987. The requirement was
to construct a new ammunition storage point (ASP) at Bagram Air Field.
Contracting officials stated that:
           the current ASP is in violation of explosives safety regulations, and
           airfield safety regulations, and poses imminent danger to life and
           government property. The existing ASP is undersized and is located
           within the clear areas of the runway. The inhabited building clear zone
           required for the amount and level of explosives stored in the current
           facility encompasses the entire north side of Bagram Airfield (BAF),
           including numerous aircraft based there. If the current ASP is not
           relocated, combat operations will continue at a significant risk. In
           addition, continued rocket threats significantly increase the potential
           for a catastrophic event, which would cripple BAF by taking out the
           airfield and munitions store for the base. In the event of an incident,
           the existing ASP could blow up, impacting equipment (aircraft),
           facilities (runway, taxiways and buildings) and personnel (soldiers and
           civilians).

This project was issued as a sole-source procurement on task order 8 of Contract
W912ER-04-D-0003 which was 1 of 10 contracts of the multiple award
contracting mechanism. The exception to providing the 10 contractors a fair
opportunity was urgency, and stated that
       CONTRACK is already mobilized in the area where work must
       commence, and therefore can begin work immediately and prevent
       unacceptable delays to the Government that could result in loss of life
       and property. It is therefore in the Government’s best interests to
       award the task order for the work. . .

While we do not question the need for this work, we found that the task order was
awarded on September 30, 2004, the last day of FY04, using funds that were to
expire at the end of the fiscal year. It is hard to believe that the urgency arose at
the end of the fiscal year when the funding was about to expire. Operations at
Bagram Air Field had been ongoing for over a year. On May 28, 2004, a
competitive task order was awarded to Contrack for repairs of Bagram’s runways
and taxiways, installation of airfield lighting, and other construction to allow the
airfield to accommodate needed aircraft. If the construction of the new
ammunition supply point had been included on this earlier task order, the
ammunition supply point would have been built sooner and at a competitive price.

Although operations and maintenance funds were used for this project, the funds
were properly used in compliance with the FY 2004 National Defense
Authorization Act. Section 2808 of the FY 2004 National Defense Authorization
Act allowed for using $200 million of operations and maintenance funds for
urgent construction projects overseas. This act authorized the Secretary of
Defense to allow operations and maintenance funds for construction projects that
meet each of the following conditions:


                                         17
       •   the construction is necessary to meet urgent military operation
           requirements of a temporary nature;

       •   the construction is not carried out at a military installation where the
           United States is reasonably expected to have a long-term presence;

       •   the United States has no intention of using the construction after the
           operational requirements have been satisfied; and

       •   the level of construction is the minimum necessary to meet the
           temporary operational requirements.

Poor planning was also evident on Contract W912ER-04-D-0004, task order 6.
This task order was for modular barracks for U.S. personnel at Manas Air Base,
Kyrgyzstan, and was awarded on a competitive basis under the multiple award
contract mechanism. Modification 2 was added on September 29, 2004, for $7
million, however this was for new work (additional barracks) and was not part of
the original competition. The justification for issuing this as an undefinitized
action was for urgency and stated:
           These additional barracks were urgently needed to meet an increase in
           coalition forces population. This recent coalition force population
           increase is the result of other coalition nations redeploying their troops
           to Manas, versus participation in the Global War of Terrorism at other
           locations, and could not have reasonably anticipated until recently.
           Further, the overlap of personnel during deployment rotation changes
           essentially doubles the base population. The current troop population
           is resident in tents that have been utilized for almost three years, the
           extreme weather conditions in Kyrgyszstan require that these tents be
           heated. This climate exacerbates degradation of quality of life; and the
           necessity of heating these tents creates a significant life safety problem.
           It is essential that these additional barracks be constructed as soon as
           possible.

However, a day later, a budgetary Rough Order of Magnitude submitted by the
contractor showed that the start of construction was postponed from the fall of
2004 to the spring of 2005. The Air Force base commander determined that the
construction would be too disruptive to the base in the fall of 2004.

As a result, on September 15, 2004, DoD knew that the requirement was no
longer urgent, and USACE personnel should have cancelled the modification. If
it was urgent, and posed a significant life safety problem, as the justification
stated, construction would not have been delayed until the spring of 2005. In our
opinion, the only actual urgency that existed was that the operations and
maintenance funding was going to expire at the end of the fiscal year.

The inability of TAC to adequately plan the contracts and determine design
specifications for the ANA resulted in poorly executed contract actions, even on
some task orders awarded under the multiple award mechanism. Besides a lack
of planning and execution, USACE contracting personnel made improper contract
awards.



                                          18
Contract Awards
    Contract DACA78-03-D-0002 and Contract DACA78-03-C-0009 operated as if
    both were cost-reimbursable contracts although USACE classified both as
    firm-fixed-price contracts. In addition, the method in which TAC contracting
    officers awarded four contract actions valued at $6.1 million on the 2 contracts
    gave the contractors an incentive to increase costs. This would not have occurred
    had TAC contracting officials negotiated a fixed price before work commenced.
    Furthermore, TAC contracting officers allowed out-of-scope items on Contract
    DACA78-03-D-0002.

    Type of Contract. Although USACE classified Contract DACA78-03-D-0002
    and Contract DACA78-03-C-0009 as firm-fixed-price contracts, the two contracts
    did not operate as the FAR describes a firm-fixed-price contract. Instead both
    contracts operated as if awarded on a cost-reimbursable basis. Without a firm
    requirement or specification, there can be no firm price established. A firm-fixed-
    price contract places the risk of performance on the contractor. However, for
    these two contracts, there was little risk for the contractors in performing the
    work, because there was no incentive to control the costs.

    FAR Subpart 16.202, “Firm-fixed-price contracts,” states that this type of contract
    is suitable for acquiring
               supplies or services on the basis of reasonably definite functional or
               detailed specifications (see Part 11) when the contracting officer can
               establish fair and reasonable prices at the outset, such as when –

               (a) There is adequate price competition;

               (b) There are reasonable price comparisons with prior purchases of the
               same or similar supplies or services made on a competitive basis or
               supported by valid cost or pricing data;

               (c) Available cost or pricing information permits realistic estimates of
               the probable costs of performance; or

               (d) Performance uncertainties can be identified and reasonable
               estimates of their cost impact can be made, and the contractor is willing
               to accept a firm fixed price representing assumption of the risks
               involved.

    A firm-fixed-price contract provides for a price that is not subjected to any
    adjustment resulting from the contractor’s cost experience during performance,
    and it places the maximum risk on the contractor for all costs and resulting profit
    or loss. Firm-fixed-price contracts are usually used in situations in which the
    contract requirements are clearly understood and described. The FAR states that
    firm-fixed-price contracts should be used in those situations in which fair and
    reasonable prices are established at the outset. Moreover, the method in which
    USACE awarded four of these contract actions gave contractors an incentive to
    increase costs.



                                             19
Incentive to Increase Costs. The creation of a Cost-Plus-a-Percentage-of-Cost
(CPPC) system of contracting is prohibited by 10 U.S.C. 2306. Comptroller
General Decision B-183705, Marketing Consultants International Limited,
identified a four-point test for determining CPPC contracts. Contracts meeting all
four criteria violate the prohibition against CPPC contracts. The four-points are:

       •   payment for profit is based on a predetermined percentage rate,

       •   the predetermined percentage rate is applied to actual performance
           costs,

       •   contractor entitlement is uncertain at the time of contracting, and

       •   contractor entitlement increases commensurately with increased costs.

Three task orders from Contract DACA78-03-D-0002 and one change order from
Contract DACA78-02-C-0009 met three of the four criteria for a CPPC system of
contracting. Although the four actions cannot be considered CPPC contracts, all
four operated very similarly to a CPPC system. For each of the four above
contracting actions, USACE authorized the contractors to begin work without
definitizing a price, and did not definitize the actions until after the contractors
had performed most or all of the work. As a result, the definitized price was
based on incurred costs. The profit was charged as a percentage rate that was
applied to these incurred costs. Therefore, the contractor had an incentive to
increase costs, because higher costs resulted in higher profit. These contract
actions did not meet the legal definition of CPPC because the profit rate was not
predetermined when the initial awards were made, although in all four cases TAC
accepted the contractor’s proposed rate.

For example, task order 8 of Contract DACA78-03-D-0002 was for upgrading
facilities for the ANA located at the Palace Compound Kabul, Afghanistan. The
contractor began working without definitizing the price of the work. The task
order was awarded in July 2003, and the period of performance was 120 days.
The contractor submitted its final proposal on November 4, 2003, for $617,295
including a profit of 10 percent. However, the negotiated price was $629,433
because that was the amount the government had already paid the contractor. As
a result, besides a profit of 10 percent, the contractor was paid an additional
$12,137.

This task order gave the contractor incentive to increase costs because the
contractor’s entitlement was uncertain at the time of contracting, and the
contractor’s entitlement increased commensurately with increased costs.
Although the profit rate was not predetermined, it was applied to actual
performance costs. Furthermore, the contractor and USACE knew that a profit
percentage would be eventually applied to the costs because USACE accounted
for a profit percentage in its Government estimate and the contractor proposed a
profit percentage. In our opinion, the method in which this task order operated is
not a sound way to conduct business. Giving the contractor an incentive to
increase costs is the opposite of how a firm-fixed-price contract should be
structured.



                                     20
Out-of-Scope Items.
    TAC contracting personnel allowed out-of-scope items on Contract
    DACA78-03-D-0002. The scope of the contract was for design and construction
    services but did not include construction equipment. Task order 3 was awarded
    for $2.8 million and was for 11 pieces of equipment that included a bulldozer,
    wheel loader, grader, excavator, crane, four dump trucks, a roller, and an
    8000-gallon mobile refueler.

    The contractor that was awarded the task order purchased this equipment from an
    intermediary company that it used to purchase equipment. The intermediary
    company purchased the equipment from the dealer. As a result, USACE paid the
    contractor and the intermediary company profit and overhead for this equipment.
    USACE paid the contractor 11 percent for overhead and general and
    administrative expenses and 7 percent profit or, approximately $454,000. Two
    invoices in the contract file show that the intermediary company was paid 7
    percent profit on two pieces of equipment or, approximately $62,000. In addition,
    on another task order, an AED contracting official allowed the contractor to lease
    13 vehicles for $354,217.

    The lack of planning, ineffective contract execution, and improper contract
    awards led to an inability to determine whether USACE paid fair and reasonable
    prices for the construction services.


Fair and Reasonable Price
    Price negotiation techniques and timely definitization of work were inadequate to
    ensure that task orders on Contract DACA78-03-D-0002 with Contrack
    International, Inc., and Contract DACA78-03-C-0009 with Perini Corporation
    were fair and reasonable. Specifically, for 12 of 24 price negotiations, the
    technique used to determine price reasonableness was based on comparing the
    contractor proposal to the Government estimates. In addition, USACE
    contracting officers allowed excess cost on these contracts.

    Both contracts were awarded on a competitive basis, but only limited funding was
    obligated at the time of award. The Contrack International, Inc., contract was an
    IDIQ contract that assigned work and obligated funds on individual task orders.
    The Perini letter contract was awarded as an undefinitized contract and prices
    were definitized on the contract modifications. Therefore, price reasonableness
    for these two contracts was not established by price competition, and negotiations
    between the Government and the contractors occurred to determine pricing.
    Specifically,

           •   the independent Government cost estimates (IGCE) were not accurate,

           •   the contract negotiators did not reconcile differences between the
               IGCEs and contractor proposals,



                                        21
       •   TAC contracting personnel allowed unauthorized costs to be paid to
           the contractor, and

       •    TAC contracting personnel did not definitize contract actions on a
           timely basis.

Government Estimates. Since competition was not a basis to establish price
reasonableness, contracting officials used other negotiation techniques to
determine that these contract actions were reasonable. One technique was
developing an IGCE that provided TAC contracting personnel a basis from which
to begin negotiations with the contractor. For task orders awarded under the
Contrack International contract, contracting officials determined that task order
prices were reasonable by comparing the proposed price to IGCE for 11 out of 20
task orders. Cost estimators at TAC prepared the IGCEs. However, the IGCEs
were not reliable enough to provide assurance that prices were reasonable.
IGCEs were prepared quickly and with little information. Below are comments
TAC personnel made regarding the IGCE.

       •   A cost estimator informed us that the cost data used to compute the
           estimates was approximately 1 year old and that when computing
           estimates, estimators just "load quantities" into the estimating system.

       •   A TAC architect informed us that the early IGCE for Afghanistan
           projects were poor because they were based on information from more
           developed countries.

       •   A cost estimator noted that estimates were prepared based on the scope
           of work that the estimator receives. Since the statement of work was
           very generalized (without designs or material specifications) for most
           of the contract actions, the estimates are not very detailed.

       •   A contract negotiator noted that the estimates, at times, did not
           consider certain elements included in the contractor's proposal.

       •   A contracting officer told us that the estimators are often told what the
           total available funding would be and, subsequently, tailored the
           estimates to the funding.

       •   A project manager stated that some IGCEs were prepared in fewer
           than 10 minutes.

Also, cost estimates were prepared in Winchester, Virginia, thousands of miles
away from where the work was actually performed. As a result, it was difficult
for the estimators to accurately calculate a reasonable cost estimate.

       •   Contract DACA78-03-D-0002, task order 4 was inaccurately
           estimated. A major difference existed between the IGCE price and the
           proposed price for one of the line items. The contractor proposed a
           price of $1.6 million to clear the site, but the IGCE for this line item
           was $95,962. The estimator admitted that his estimated price was not



                                    22
           based on facts or assumptions, but was merely a guess. Therefore, the
           contractor’s price was accepted.

       •   The contractor’s cost proposal for Contract DACA78-03-D-0002, task
           order 10 included a line item for a barbershop at a total cost of
           $21,909. The IGCE for the barbershop was $90,750. The estimated
           cost of the barbershop was over four times greater than the
           contractor’s proposal. The estimator assumed that the barbershop
           would be a new construction, but the contractor built the barbershop
           utilizing an existing building. The estimators would have known this
           fact if the estimate was conducted in country.

       •   In Contract DACA78-03-C-0009, modification 10, the IGCE stated
           that concrete would cost $67.14 per cubic meter; however, cost
           analysis revealed that the market rate was actually $211 per cubic
           meter.

In another example, the costs of a Government estimate were prepared based on
the costs of a contractor proposal. Task order 8 was issued as a sole-source
procurement on Contract W912ER-04-D-0003 which was 1 of 10 contracts of the
multiple award contracting mechanism. The project was to construct a new
ammunition storage point (ASP) at Bagram Air Field valued $12,392,987. The
first TAC estimate for the project was dated September 27, 2004, and was for
$6.5 million. TAC acknowledged that this estimate was based on limited
knowledge of the project scope, and assumed that this ammunition supply point
was similar to other ammunition supply points constructed in war zones. The
TAC estimator stated that when more information became available a couple days
later, that the actual scope and size of the project was more similar to ammunition
supply points located in the United States and more permanent in nature.

After the contractor proposal was submitted on September 28, 2004, TAC
prepared a second estimate because the first estimate was not close to the
contractor proposal.

The table below illustrates the difference between the Government estimate and
the contractor proposal. For each of the line items of the work, there was a
difference of 4.077 percent (except for the guard house which was 4.076 percent)
between the contractor proposal and the government estimate. Because each line
item has the same difference between the proposal and the Government estimate,
we believe that the estimate was not independently prepared, but was prepared
based on the contractor proposal. Furthermore, because there was no independent
Government estimate, the Government cannot be assured that the price paid for
this work was reasonable because the Government accepted the total proposed
price of $12.4 million, except for $50,000 discount the contractor provided after
the Government exercised the option at the time of award.




                                    23
           Table 2. Comparison of the Contractor Proposal to the
                         Government Estimate

                          Contractor        Government      Percentage Proposal
         Item              Proposal          Estimate         Below Estimate
Demolition and
Grading                       $1,251,525       $1,304,715                 4.077%
Roads and Pads                $1,321,201       $1,377,352                 4.077%
Concrete Pads                   $585,144         $610,012                 4.077%
Protection Barriers           $5,854,982       $6,103,818                 4.077%
Guard Tower                     $339,296         $353,716                 4.077%
Guard House                      $97,890         $102,050                 4.076%
Chain Link Fence                $410,164         $427,596                 4.077%
Administration
Building                        $878,263         $915,589                 4.077%
Vehicle Inspection
Building                       $407,699         $425,026                  4.077%
Option 1: Demining            $1,296,823       $1,351,938                 4.077%
Total without Option         $11,146,163      $11,619,874                 4.077%
Total with Option            $12,442,987      $12,971,812                 4.077%


Because this acquisition was quickly awarded after receiving operations and
maintenance funding and had to be awarded prior to October 1, 2004, TAC did
not have time to prepare an independent estimate of the cost of the project. As a
result, TAC relied on the cost of the contractor proposal as the basis to award the
task order.

TAC contracting officials made inadequate price reasonableness determinations
by comparing the IGCE total price to the contractor’s total proposed price instead
of analyzing individual line items within the proposal. The negotiator overlooked
major differences between the prices of individual line items on the proposal and
IGCE.

For example, on Contract DACA78-03-D-0002, task order 8, the contractor
proposed $617,296. The TAC contracting official considered this price
reasonable because it was less than the IGCE of $786,223. However, the
contractor proposed price did not include options 1 and 2, while the IGCE
included options 1 and 2. Removing the two options from the IGCE, the estimate
would have been $350,810 ($266,486 less than the proposed price of $617,296).
In addition, there were two line items for which the proposed price was much
higher than the IGCE:

       •   The IGCE for renovating a dining facility was $65,589, but the
           contractor proposed $236,671.




                                     24
       •   The IGCE for improving the Morale, Welfare, and Recreation building
           was $26,871, but the contractor proposed $121,861.

These discrepancies did not affect the proposal analysis because contracting
officials compared the proposed price excluding options to the IGCE including
options. Had the contracting officials taken the time to negotiate the line items,
the Government may have paid a lower price.

Contract DACA78-03-D-0002, task order 4 provided another example of not
comparing the individual line items of the proposal to the independent
Government cost estimate. Table 3 below compares line items between the
contractor proposal and the IGCE.

Table 3. Comparison of Line Items Between the Contractor Proposal and
the Government Estimate for Task Order 4

                                                     Difference Between
                                                        Proposal and
       Item              IGCE             Proposal          IGCE
Storage Building        $12,353457        $6,255,865          $6,097,592
Fire Station            $1,504,518         $161,639           $1,342,879
Bachelor Officer
Quarters                  $351,859  $2,154,859                ($1,803,000)
Support Facility        $1,288,268  $2,564,556                ($1,276,288)
Total                  $15,498,102 $11,136,919                  $4,361,183

The contract negotiator recalled that he did not investigate line item differences
because the total estimated cost of all options was $21.6 million, while the total
proposed cost of all options was only $17.3 million.

The contracting officials also made inadequate price reasonableness
determinations on the Perini contract. For example, three change orders, totaling
$580,528, were awarded without any price reasonableness determination.
Furthermore, a change order was definitized at a price of $530,000. The price
was considered reasonable because the proposal was based on actual incurred
costs. This does not justify an adequate price reasonableness determination.
Determining that the proposal showed actual costs does not mean that those costs
were reasonable. Also, another change order was definitized at a price of $2.8
million. Contracting officials failed to justify $274,577 or 9.6 percent of the cost.

Unauthorized Costs. TAC contracting officials also accepted questionable costs
that could be considered indirect costs or overhead. For some of these same
costs, an AED contracting officer successfully negotiated those costs from the
contractor proposal. For example, while negotiating modification 8 of task order
7, Contract DACA78-03-D-0002, the AED contracting officer stated in the PNM
that the following costs should not be included in the contractor proposals:




                                     25
       •   mobile radio fees;

       •   stationary, cleaning supplies, buffet supplies, hospitality
           entertainment, maintenance agreements, copying; and

       •   banking, legal, and accounting fees.

As a result, the AED contracting officer successfully removed some of these
items from the contractor proposal and saved $5,350. However, TAC contracting
officials allowed these items onto other task orders of the same contract. We
determined that TAC contracting officials allowed these items, at a total value of
$323,980, onto other task orders of Contract DACA78-03-D-0002. These costs
were accepted without negotiations. Appendix E illustrates total identified
questionable costs valued at $3.5 million accepted without negotiations under the
contract. We believe that many of these items should have been incorporated as
part of overhead or general and administrative percentages. Some examples are
the contractor charged $3,095 for buffet attendants; $3,687 for janitors; and
$18,969 for rest and relaxation expenses for the contractor. The items in bold
listed in Appendix E are all the items from the contractor’s proposals that the
AED contracting official did not believe should be allowed. We believe that
USACE contracting personnel should request that the Defense Contract Audit
Agency conduct a review for the task orders of Contract DACA78-03-D-0002.

The IGCEs were not reliable enough to represent reasonable pricing, and
contracting officials did not take steps to rectify the differences between the
estimates and proposals. TAC personnel stated that there was a sense of urgency
to begin awarding task orders in order to begin reconstruction efforts. As a result,
the personnel said that IGCEs were quickly prepared with little total knowledge
of the entire project. While we do not doubt that TAC personnel had to react
quickly, it is still the responsibility of the contracting officer to obtain a fair and
reasonable price. As a result, additional steps contracting officials should have
taken to ensure that the proposed prices were fair and reasonable were:

       •   identifying differences between individual line items of the proposal
           and the IGCEs, determining why those differences existed, and
           negotiating the proposed prices, if necessary;

       •   obtaining and documenting assistance from technical experts in the
           field to determine whether the proposed material costs and quantity of
           labor hours were reasonable; and

       •   obtaining assistance from the Defense Contract Audit Agency to
           determine if the proposed labor rates were reasonable.

Negotiating Prices. TAC improperly awarded task orders on Contact DACA78-
03-D-0002. The FAR Subpart 16.505(a)(2) requires that
           Individual orders shall clearly describe all services to be performed or
           supplies to be delivered so that full cost or price for the performance of
           the work can be established when the order is placed. Orders shall be




                                         26
           within the scope, issued within the period of performance, and be
           within the maximum value of the contract.

Under Contract DACA78-03-D-0002, TAC awarded 13 of 14 task orders without
clearly describing the work or establishing a fair and reasonable price when the
orders were placed. Instead, TAC notified the contractor to begin work based on
a rough order of magnitude, or a rough estimate of the project that the contractor
submitted. TAC did not comply with the FAR because in each of the 13 task
orders, TAC authorized the contractor to begin working without clearly
describing the work or negotiating a fair and reasonable price.

For at least two task orders, the performance was nearing completion prior to
negotiating a price For one task order, 90 percent of the not-to-exceed price was
paid to the contractor before this task order was definitized. In another order for
operations and maintenance for facilities, the order was definitized only 4 days
prior to the performance period expiring. As a result, the Government must have
negotiated these orders based on actual incurred costs. In a firm-fixed-price
contract, the Government and contractor should have agreed to a price prior to
work beginning, or if work began as an undefinitized action, soon after work
began without expending a majority of the not-to-exceed amount. In these two
cases, neither was completed and there was little or no risk to the contractor in
performing this work.

Task order 2 of Contract DACA78-03-D-0002 illustrated the difficulties in using
a firm-fixed-price contract for the work in Afghanistan. In June and August 2003,
additional requirements were added and the requirement to house U.S. trainers
was changed to house the ANA. U.S. personnel discovered that there was not
enough buffer zone between the U.S. designated facilities to comply with
operational security requirements. As a result, U.S. personnel could not be
located at this site. Again, no price was negotiated for the additional work and
modifications were issued without negotiating a price when the modification was
issued.

Modifications 1 and 2 more than doubled the original amount of the task order.
Some of the original requirements were removed, and construction requirements
for 2 new barracks and renovation of 11 buildings were added, and the task order
still had not been definitized. In addition, the completion dates for the
requirements were changed to February 2004, and more modifications were added
that increased the number of facilities to this compound. As a result, TAC did not
negotiate the original portion and the first two modifications to this task order
until the end of March 2004, or 11 months after work began. Furthermore,
completion dates were not met. Through March 2004, TAC was invoiced only
$16.2 million, or less than 50 percent of the definitized amount. This indicated
that the construction was not complete, but according to the schedule, the entire
portion of this task order should have been completed by February 2004.

Contract DACA78-03-D-0002, task order 14 designed and constructed a pre-
engineered metal housing complex for U.S. military personnel at Kandahar
Airfield. However, the price of the task order was not negotiated until six and a
half months after the award date and it was negotiated for $2.1 million more than
the previously established, not-to-exceed amount.


                                      27
    TAC improperly awarded 13 of 14 task orders and in doing so placed the
    Government in a financially risky situation while it placed no risk on the
    contractor. This is opposite of how a firm-fixed-price contract is intended to
    work.


Conclusion
    TAC did not have the time it needed to properly plan, design, and award the
    initial contracts for work in Afghanistan and the USCENTCOM area of
    responsibility. TAC engineers began with too little information in order to begin
    building facilities to house and support the ANA, and put together a framework to
    accomplish the task in a little over 3 months in a remote and sometimes hostile
    environment. Furthermore, TAC initially developed a logical contracting plan to
    accomplish building facilities for the ANA and other USCENTCOM
    requirements. Because there were still too many unknown factors about
    contracting in Afghanistan, TAC initially planned to award a cost reimbursable
    contract to one contractor and then, to consolidate the expected increase of
    construction requirements in the USCENTCOM area of responsibility, USACE
    planned to award multiple award contract mechanism to allow for competition of
    the requirements or task orders among the awardees.

    However, TAC made mistakes in structuring the solicitation as a cost
    reimbursable contract and did not have time to correct the mistake. Because work
    had to begin, TAC awarded two firm-fixed-price contracts and began awarding
    task orders and modifications on an urgent basis without establishing firm
    requirements or negotiating fair and reasonable prices at the onset of work. In
    addition, design changes made to ANA facilities resulted in additional time and
    money spent on the task orders. Had there been time to adequately plan for this
    acquisition support, including standard designs for ANA facilities, many of the
    problems could have been reduced. TAC contract negotiation techniques were
    inadequate to ensure prices paid to the contractors were fair and reasonable.
    Furthermore, by waiting so long to definitize prices on several contracting
    actions, TAC gave contractors incentive to increase costs by reimbursing them for
    the actual incurred costs plus profit charged as a percentage of those costs.

    Furthermore, when the multiple award contracts were in place in January 2004,
    TAC and AED personnel continued to use the single award contract awarded
    early in the process and did not take advantage of competing these requirements
    by using the multiple award contract mechanism. In addition, after AED became
    a separate engineering activity from TAC, AED began awarding contracts to
    some of the same contractors that TAC awarded contracts to for similar scopes of
    work. Overall, TAC has done an adequate job of providing contractors a fair
    opportunity to bid for requirements on the multiple award contract. Some
    problems we noted were that some task orders were awarded without providing
    contractors a fair opportunity for consideration because of a lack of planning by
    DoD.

    We are not making a recommendation regarding a lack of planning for acquisition
    support in a wartime environment because that recommendation was made in


                                        28
    DoD IG Report D-2004-057 and the Under Secretary of Defense for Acquisition,
    Technology, and Logistics is currently working on a study that addresses that
    issue.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander, U.S. Army Corps of Engineers:

            1. Terminate Contract No. DACA78-03-D-0002 with Contrack
    International, Inc., and utilize the 10 contractor multiple award mechanism
    for satisfying U.S. Central Command’s requirements for construction.

    Management Comments. The Deputy Commander, U.S. Army Corps of
    Engineers nonconcurred to terminate this contract. The Deputy Commander
    stated that it was still more advantageous to use this contract under certain
    circumstances and it was being used generally on projects that are considered a
    continuation of work by the same contractor such as providing continued base
    operations and maintenance services.

    Audit Response. We disagree that Contrack’s single award contract,
    DACA78-03-D-0002, should continue to be used. USACE asserts that this
    contract is needed for projects that should be performed by Contrack. We believe
    this assertion is incorrect. Both the single award to Contrack International, Inc.,
    and the multiple award contract were for a wide range of design and construction
    services, including operations and maintenance services. Therefore, the scopes of
    work were primarily the same for both vehicles, except that the multiple award
    contract covered a wider geographic area, the entire USCENTCOM area of
    responsibility including Afghanistan. The single award contract covered only
    Afghanistan. As a result, any requirement placed on the single award could be
    placed on the multiple award vehicle. Contrack is one of the 10 contractors on
    the TAC multiple award mechanism. Multiple award regulations provide
    “exceptions to fair opportunity,” which allow task orders to be awarded on a sole-
    source basis when it is necessary. Furthermore, the one example the USACE
    provided to keep this contract in existence was providing base operations and
    maintenance services, which was a service specifically provided for in the
    multiple award scope of work. This requirement could be easily competed among
    the 10 contractors to obtain competitive pricing. We recommend that USACE
    respond by November 14, 2005.

            2. Formalize and develop a design standard for all Afghan National
    Army facilities that are being repetitively constructed in Afghanistan and
    utilize those designs for future construction of like facilities.

    Management Comments. The Deputy Commander, U.S. Army Corps of
    Engineers met the intent of this recommendation to formalize a design standard
    for all Afghan National Army facilities being repetitively constructed. The
    Deputy Commander stated that established standards are now in place and
    experience little change except for incorporating lessons learned.


                                        29
        3. Request that the Defense Contract Audit Agency conduct a review
of costs of the task orders awarded under Contract No. DACA78-03-D-0002.
This review should focus on unallowable cost items.

Management Comments. The Deputy Commander did not address this
recommendation in his response.

Audit Response. We request that the U.S. Army Corps of Engineers provide a
response by November 14, 2005.

       4. Initiate a preliminary review to determine whether the use of
operations and maintenance funds for task order 14 from Contract
DACA78-03-D-0002 resulted in an Antideficiency Act violation in
accordance with DoD 7000.14-R, “Financial Management Regulations.”

Management Comments. The Deputy Commander nonconcurred with this
recommendation stating that the U.S. Army Corps of Engineers did not engage in
illegal splitting and did not exceed statutory thresholds for use of operations and
maintenance funds for this task order. The U.S. Army Corps of Engineers stated
that the total requirement of the task order to house 4,500 personnel could be
divided into seven phases because each phase was in a different geographic area
of the base, and as a result, each phase was considered a separate and complete
usable camp. Each phase consisted of approximately 23 barracks buildings, 4
toilet and shower buildings, and 2 laundry buildings. According to the U.S. Army
Corps of Engineers, the cost elements associated with each phase of this task
order were then lawfully split into separate items, one for design and construction
of the facilities, and the second for the relocatable building material. The cost of
the design and construction portion was under the $750,000 threshold which
allowed the U.S. Army Corps of Engineers to use operations and maintenance
funds. Further, the U.S. Army Corps of Engineers stated that the relocatable
building material was under the threshold because each barracks (23 per phase
and the other buildings) was considered a separate unit for a unit cost of
approximately $144,000 per barracks. The U.S. Army Corps of Engineers also
stated that the draft report contained an error in how the bid items of the task
order were written.

Audit Response. We disagree. USACE should have conducted a preliminary
review. We also disagree with the USACE assertion that the cost per phase can
be divided between construction and material and disagree with the USACE
assertion that each barracks, toilet and shower facility, and laundry facility
constitutes a separate unit when it calculated the cost. If USACE considered each
phase of the project a separate and distinct usable facility, then the entire
construction cost per phase should have included the design and construction
portion and the total cost of the relocatable facilities. As a result, the cost per
phase would have been higher than either the $750,000 or $1.5 million dollar
threshold allowing the use of operations and maintenance funds.

In order to be under the threshold for using operations and maintenance funds,
USACE instead stated that the design and construction portion for each phase of
the project was for all facilities of that phase but that the cost of the buildings in
each phase were considered a separate unit. For example, instead of stating that


                                      30
the cost of 23 barracks for a particular phase was approximately $3.3 million, the
USACE position is that the cost of the barracks was a unit cost of $144,000 for 23
separate units. USACE cited a Defense Financial Accounting Service Manual
that allowed it to expense (use operations and maintenance funds) capital
equipment (the relocatable building material) if the per-item amount was less
$250,000. However, Army Regulation 420-18, “Facilities Engineering Materials,
Equipment, and Relocatable Building Management,” Chapter 5, paragraph 5.2.f
states,
       Relocatable buildings may be used instead of conventional permanent
       construction, particularly overseas, when the requirement duration is
       unknown. In such cases, the project will be programmed by using
       proper military construction procedures and totally funded from
       military construction appropriations per AR 415-15 or AR 415-35.

We maintain that in order to have a complete and usable facility, all costs
associated with design, construction, materials, and utility hookup have to be
considered in totaling the cost of that facility. This definition of construction is
consistent with the USACE definition of construction as stated in an e-mail
between TAC personnel discussing this project. The overall theme of the e-mail
was how to get this project funded using operations and maintenance funds. The
following is quoted from the e-mail, dated September 18, 2003.
       Our [USACE] definition of construction: concrete pad, assembly of
       building, installation of window and doors, installation of electrical
       fixtures, trenching and hookup to utility systems, etc.

       [Customer’s] definition of construction: concrete pad, trenching and
       hookup to utility systems (clearing, demo, utility distribution; these are
       not our responsibility so they do not count). All other items he
       describes as being integral to the equipment purchase. Obviously
       given the situation we are willing to accept his definition. In doing so
       we have recalculated the resulting construction costs. If we assume 6
       equally sized phases the total construction cost including S&A equals
       exactly $750k. We are there, without a penny to spare. We’ll have to
       hope the contractor is too. [TAC General Counsel] tells me that
       [Customer] is not hung up on the number of phases. He says there are
       6, the scope of work we received said 7, there may be justification for
       using other numbers of phases (there may be logic for splitting the 3
       US tent cities (A, B, C) into smaller phases, but we can not determine
       that). Apparently he would not have a problem if we used 7. Using 7
       gives us a cushion on the $750k limit. So that is the plan at present.
       Seven equally sized phases using his definition of construction.

       I would feel much more comfortable if CJTF180 would state that these
       facilities are need for health and life safety reason therefore allowing us
       to increase the construction ceiling from $750k to $1.5m. Not only
       would this give us a good cushion this would also allow me to create
       unequal size phases which is much more logical and consistent with
       actual unit sizes.




                                          31
USACE should not have allowed the customer to dictate the definition of
construction. After all, this is supposed to be the USACE area of expertise. By
doing so, USACE indicated that it was acceptable to derive the number of phases
for housing 4,500 troops to whatever level was necessary in order to use
operations and maintenance funds, a violation of Public Law 97-214 and Army
Regulation 420-10, paragraph 4-4a(2).

In our opinion, this project was split so that operations and maintenance funds
could be used by splitting the requirement into phases. USACE stated that the
entire requirement to house all 4,500 troops could be accomplished in 7 phases.
By doing this, the USACE stated that each of the seven phases was a separate
camp and constituted a complete and usable facility funded as a separate project.
However, e-mail correspondence indicates that the number of phases could easily
vary from 6 through 22. The customer stated that there were six phases, but
USACE stated that seven would provide more of a cushion. (Using six phases
would have resulted in the cost per phase of what the customer defined as
construction being right at the $750,000 threshold.) As a result, the requirement
was divided into seven phases using the definition of construction as dictated by
the customer. In our opinion, because the requirement for this project was to
house 4,500 troops at one geographic location (Kandahar Airfield), a facility
could not be considered “complete and usable” unless it housed all 4,500 of them.
Even if seven separate camps (phases) were needed to house them all, the camps
were still part of the same project.

Furthermore, we disagree with the USACE assertion that each phase was in a
different geographic location at the base. USACE provided us with a diagram of
the base showing the locations of the seven phases. The diagram showed that
Phases 4, 5, 6, and 7 were adjacent to one another. It did not at all appear that the
phases were in different geographic locations.

As a result, operations and maintenance funds should not have been used because
the entire project was initially awarded for $26 million. Even if there were seven
distinct phases (which is unclear), as USACE stated, operations and maintenance
funds still should not have been used because USACE improperly split the costs
of the phases into separate cost elements which is inconsistent with Army
regulations.

We believe that Military Construction Appropriations should have been used for
the project and that USACE should still comply with this recommendation. We
recommend that USACE respond by November 14, 2005.




                                     32
Appendix A. Scope and Methodology
   We began the audit by focusing on one single IDIQ contract award for work in
   Afghanistan; however, upon further review, discovered that similar work was
   being performed under a letter contract for work in Afghanistan, a limited
   competition multiple award contract for work within the USCENTCOM area of
   responsibility, and a full and open competition multiple award contract for work
   within the USCENTCOM area of responsibility. The multiple award contracts’
   scope of work is for design and construction services in Afghanistan, Kuwait, the
   United Arab Emirates, Qatar, Kyrgyzstan, Jordan, Pakistan, and Uzbekistan. We
   reviewed 36 task orders from 14 IDIQ contracts valued at $743.8 million.
   Additionally, we reviewed eight modifications from the letter contract valued at
   $38.2 million.

   Since the Special Inspector General for Iraq Reconstruction (formerly the
   Coalition Provisional Authority, Inspector General) is charged with auditing and
   investigating issues involved with Iraqi reconstruction, we did not audit those task
   orders associated with Iraq. For the 15 contracts we reviewed, there were 35 task
   orders for work in Iraq valued at $1.502 billion.

   We examined the contracting procedures TAC officials used in awarding
   contracts to support the Global War on Terrorism. Specifically, we reviewed
   documentation that supported the requirements’ determination, size and
   dimension specifications, types of contracts used, use of other than full-and-open
   competition, and determinations of price reasonableness.

   During our audit, we visited TAC, Headquarters for the U.S. Army Corps of
   Engineers, former AED contracting officers, and one contractor. We also
   communicated with USCENTCOM and a USACE contracting officer stationed in
   Kuwait. During our visits to TAC, we interviewed contracting officers and
   specialists, negotiators, estimators, legal counsel, and other responsible officials
   involved with the procurement process.

   We reviewed the contract files located and maintained at TAC and requested that
   TAC employees deliver additional information for task orders and modifications
   awarded in Afghanistan. In addition, we reviewed e-mails, PNMs, justifications
   for other than full-and-open competition, cost and technical evaluations,
   Government estimates, payments, and contract modifications.

   We performed this audit from June 2004 through May 2005 in accordance with
   generally accepted government auditing standards. Our scope was limited in that
   we did not review the TAC management control program because that was not an
   announced objective and we only reviewed contract actions awarded regarding
   specific contracts from FY 2003 through FY 2004.

   Use of Computer-Processed Data. TAC supplied us with spreadsheets detailing
   DD 350 number, action date, country code, type of obligation, and obligated
   amounts for contract actions that they awarded from FY 2002 through FY 2004.
   We relied on these spreadsheets to show that the contract action had been



                                        33
awarded; however, we relied on the award documents to determine the values of
each contract action.

Government Accountability Office High-Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in the
Department of Defense. This report provides coverage of the high-risk area to
DoD Contract Management.




                                   34
Appendix B. Prior Coverage
      During the last 5 years, GAO, the Department of Defense Inspector General
      (DoD IG) and the Special Inspector General for Iraq Reconstruction (SIGIR),
      formerly the Coalition Provisional Authority Inspector General, have issued 11
      reports discussing contracts in support of the Reconstruction resulting from the
      Global War on Terrorism, undefinitized contract actions, and multiple award
      contracts. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
      http://www.dodig.mil/audit/reports. Unrestricted SIGIR reports can be accessed
      at http://www.cpa_ig.org/audit_reports.html.

GAO
      GAO Report No. GAO-04-915, “Military Operations: Fiscal Year 2004 Costs for
      the Global War on Terrorism Will Exceed Supplemental, Requiring DOD to Shift
      Funds from Other Uses,” July 21, 2004

      GAO Report No. GAO-04-854, “Military Operations: DOD's Extensive Use of
      Logistics Support Contracts Requires Strengthened Oversight,” July 19, 2004

      GAO Report No. GAO-04-605, “Rebuilding Iraq: Fiscal Year 2003 Contract
      Award Procedures and Management Challenges,” June 1, 2004

      GAO Report No. GAO-04-668, “Military Operations: DOD's Fiscal Year 2003
      Funding and Reported Obligations in Support of the Global War on Terrorism,”
      May 13, 2004

DoD IG
      DoD IG Report No. D-2004-112, “Undefinitized Contract Actions,”
      August 30, 2004

      DoD IG Report No. D-2004-111, “Contracts Awarded by the Defense Threat
      Reduction Agency in Support of the Cooperative Threat Reduction Program,”
      August 25, 2004

      DoD IG Report No. D-2004-057, “Contracts Awarded for the Coalition
      Provisional Authority by the Defense Contracting Command–Washington,”
      March 18, 2004

      DoD IG Report No. D-2001-189, “Multiple Award Contracts for Services,”
      September 30, 2001




                                          35
Appendix B. Prior Coverage, cont’d

SIGIR
   SIGIR Report No. 05-007, “Administration of Iraq Relief and Reconstruction
   Fund Contract Files,” April 30, 2005

   SIGIR Report No. 04-005, “Award of Sector Design-Build Construction
   Contracts,” July 23, 2004

   SIGIR Report No. 04-006, “Corporate Governance for Contractors Performing
   Iraq Reconstruction Efforts,” July 21, 2004




                                     36
Appendix E. Questionable Items from
Contract DACA78-03-D-0002

              Item*                         Proposal Totals
Accounting                                    $       40,379
Airline tickets                                       80,667
All risk insurance                                    98,354
Banking                                              190,374
Buffet attendant                                       4,299
Buffet supplies                                        3,095
Cleaning supplies                                      2,357
Communications                                       312,960
Computers                                              7,218
Copying                                               15,380
Field office, expenses,
 furniture, structure, renovation                      1,427,181
Food allowance                                           114,657
Furniture for Kabul and Karachi
 offices                                                  4,366
Hospitality entertainment                                 7,606
Hotel                                                    33,685
Housing for expatriates, and
 U.S. staff                                             174,216
Inland transportation from
 Turkey to Afghanistan                                   71,148
Janitors                                                  3,687
Legal                                                    54,942
Maintenance agreements                                    3,967
Parking sunshade                                          4,339
Rest and Relaxation lodging and
 tickets                                                  18,969
Staff accommodation                                      803,640
Stationary                                                 5,880
Lodging and trips                                          3,719
Visas                                                     28,239
TOTAL                                           $      3,515,323


      *The items listed in bold are the questionable items from the proposal of the contractor that the
      AED contracting official determined should not have been allowed, as stated on page 25 of this
      report.




                                                  40
Appendix F. Management Comments to the
            Finding and Audit Response
   The U.S. Army Corps of Engineers provided comments to the draft report signed
   by the Deputy Commander, U.S. Army Corps of Engineers. To his comments,
   the Deputy Commander also provided three enclosures setting forth details about
   conditions in Afghanistan and the TAC legal counsel views. The third enclosure
   was a copy of the draft report. The following are the comments that related to the
   finding.

   Deputy Commander Signed Memorandum Comments. The Deputy
   Commander stated that he was disappointed that the DoD OIG did not outbrief
   TAC about the results of the audit, nor was it provided an opportunity to submit
   comments. In addition, he disagreed with our conclusion regarding a lack of
   planning for the Ammunition Supply Point on task order 8.

   Audit Response. We disagree with the Deputy Commander regarding not having
   an outbrief. The DoD OIG audit team held an exit conference with 11 of the
   senior management personnel of TAC on September 17, 2004. Furthermore,
   TAC was provided an opportunity and did submit comments to the draft report,
   which are provided in their entirety in this final report.

   We have reviewed the Deputy Commander comments regarding task order 8 and
   still believe that this task order should have been included as part of the
   competition for a previous task order. We believe that with proper planning that
   the need to relocate the Ammunition Supply Point (the purpose of the task order)
   should have been identified in the planning of a previous task order for
   construction and repairs to the runway and parking aprons at Bagram Air Base
   (task order 3). Contract documentation indicated that the need for task order 8
   was because the ammunition supply point was only 500 feet from the center of
   the runway and posed a hazard to operations. This condition should have been
   known at the time of the planning to repair the runway. We believe that this
   requirement should have been incorporated into the planning of task order 3 and
   been competed among the 10 contractors of the multiple award vehicle.

   U.S. Army Corps of Engineers’ General Comments on Project No. D2004-
   D000CF-0186. This enclosure addressed conditions in Afghanistan and other
   topics related to the finding. The following comments and audit response are
   discussed by the corresponding paragraph numbers of the enclosure.

           Paragraph II Comments. The comments stated that the draft report
   failed to capture the austere environment in which TAC personnel accomplished
   its mission and that the report appeared to criticize TAC for taking 6 weeks to
   deploy personnel after receiving the mission.

           Audit Response. We credited the USACE in the conclusion of the draft
   report that TAC put together a framework to accomplish this task in 3 months in a
   remote and hostile environment and did not have the time needed to properly
   plan, design, and award contracts. We did not state that 6 weeks was an


                                       41
unreasonable amount of time for TAC to deploy to Afghanistan after receiving its
mission from OMC-A. We were making the point that TAC did not arrive in
Afghanistan until 6 months after Secretary Rumsfeld announced that the ANA
would be formed.

         Paragraph III Comments. USACE stated that the draft report faulted
OMC-A and USACE for changing design and construction standards and that it
lacked a formal construction standard for Afghan construction. USACE stated
that requirements changed, especially in the early stages, because they were
necessary to meet revisions in the ANA force structure, to accommodate differing
site conditions, to use newly available construction materials, and to adjust
facilities for cultural differences.

        Audit Response. We do not dispute that some of the causes of changing
requirements were out of the control of TAC and were necessary. However, we
maintain that other causes were avoidable. The TAC architect complained that
design changes resulted from USACE and OMC-A personnel rotating in and out
of Afghanistan. He said that some people wanted to change the building layouts,
though they did not have engineering backgrounds. The architect said that he had
to “hit a moving target” as a result of the design changes which delayed the
completion of projects.

        Paragraph IV Comments. USACE stated that the draft report was not
clear as to what would meet the definition of a “formalized” Afghan construction
standard.

        Audit Response. See the audit response to Recommendation 2. USACE
stated that established standards are now in place and change as a result of lessons
learned. USACE met the intent of the recommendation.

        Paragraph V Comments. USACE stated that the draft report was under
the mistaken impression that every USACE construction requirement could be
met using the 10 contractor multiple award vehicle that TAC awarded for the
entire USCENTCOM area of responsibility. Furthermore, it stated that the 5
contractor multiple award vehicle that AED awarded for construction in
Afghanistan was necessary because this vehicle can be more cost effective for
performance of requirements in remote areas of Afghanistan. It further stated that
this vehicle was awarded with the intent to execute projects that are generally
smaller or more risky while providing an opportunity to develop construction
capacity in Afghanistan. The contracts on this vehicle have a limit of $15 million
per year and USACE indicated that the firms on this contract vehicle consisted of
personnel with closer local ties. USACE also stated that the single award still
provided a useful purpose such as continuation of existing work and providing
continued base operations and maintenance services.

        Audit Response. The 10 contractor multiple award vehicle can handle all
construction requirements in the USCENTCOM area of responsibility, including
Afghanistan. We maintain that the TAC 10 contractor multiple award should be
the primary contract mechanism, because it provides for greater competition, and
because the TAC contracting office is more stable. The scope of work for the 10
contractor multiple award vehicle is more broad than the 5 contractor multiple


                                    42
award. The major differences between the vehicles are that the 5 contractor
multiple award vehicle is limited to Afghanistan and the ceiling for each contract
is $15 million per year, whereas the 10 contractor multiple award vehicle covers
the entire USCENTCOM area of responsibility, including Afghanistan, and the
ceiling for each contract is $500 million per year. Moreover, 2 of the 5
contractors on the AED multiple award are also on the 10 contractor multiple
award vehicle awarded by TAC. If USACE continues using both vehicles, a
review process should be initiated to determine the most appropriate vehicle to
use. USACE also indicated in its comments that the smaller multiple award
vehicle was put in place to handle smaller and more riskier requirements in the
more remote areas of Afghanistan, and cited two examples in which none of the
10 contractors submitted a bid on those requirements. In those cases, the USACE
philosophy of having a smaller multiple award vehicle in place for local
companies is a smart and insightful decision.

We disagree that Contrack’s single award contract, DACA78-03-D-0002, should
continue to be used. USACE asserts that this contract is needed for projects that
can only be performed by Contrack. We do not agree. Both the single award and
the multiple award vehicle have the same scope of work (Design and
Construction Services) except that the multiple award vehicle has a wider
geographic scope than the single award. The multiple award vehicle covers the
entire USCENTCOM area of responsibility whereas the single award covers only
Afghanistan. As a result, any requirement being placed on the single award to
Contrack International, Inc., can be placed on the multiple award contract vehicle
for competition. Furthermore, Contrack International, Inc., is one of the 10
contractors on the TAC multiple award vehicle. Multiple award regulations
provide “exceptions to fair opportunity,” which allow task orders to be awarded
on a sole-source basis when it is necessary, such as when:

       •   providing a fair opportunity to all contractors would result in
           unacceptable delays;

       •   only one contractor is capable of performing the work; and

       •   the task order is a logical follow-on to a prior contract with the same
           contractor.

Any work in Afghanistan that can only be performed by Contrack could be
awarded as a task order on the TAC multiple award mechanism by citing one of
the exceptions to fair opportunity. We reiterate our recommendation that USACE
terminate Contract DACA78-03-D-0002.

        Paragraph VII Comments. USACE stated that the equipment purchased
under task order 3 was not out-of-scope of the contract because the contract
contained the phrase “This contract includes, but is not limited to, design and
construction services for new construction, renovation, alterations. . ..and other
associated work necessary for a fully functional facility.” In addition, USACE
indicated that 13 vehicles valued at $354,217 were not leased “under this task
order.”




                                    43
        Audit Response. USACE contends that the purchase of construction
equipment is justified because the scope of work states “This contract includes,
but is not limited to, design and construction services for new construction,
renovation, alterations ...and other associated work for a fully functional facility.”
(emphasis added.) We disagree. All of the requirements discussed in the scope
of work were services, not equipment. Some of the equipment purchased
included a bulldozer, a crane, four dump trucks, and an 8,000 gallon refueler. We
do not believe that the vague, non-specific italicized phrases justify the purchase
of equipment on a services contract. By this logic, USACE could argue that
anything falls within the scope, since the scope of work states that the contract is
“not limited to” design and construction services.

Regarding the 13 leased vehicles, we did not state that they were leased on task
order 3. As stated in Appendix D, they were leased on modification 20 to task
order 2. We adjusted page 21 of this report to make it more clear that they were
not leased on task order 3.

        Paragraph VIII Comments. While the USACE acknowledged that
improvements in its estimating process for Afghanistan needed to improve, it
stated that some statements in the draft report were inaccurate and misleading.
Specifically, it stated that the statement on page 23 of the draft report saying, “the
estimators just ‘load quantities’ into the estimating system” and that an estimate
was completed in 10 minutes was inaccurate and misleading. USACE also
commented that it was difficult to compare contractor proposals to estimates
because the contractor had more time and detailed knowledge in which to prepare
the proposal, while the USACE estimates were based on lump sum and square
meter pricing. The comments also stated that had USACE had more time, that the
estimates would have been more accurate.

        Audit Response. The above statements were provided to us by a TAC
estimator and program manager. There was no inaccuracy in what they stated,
nor was it misleading. Furthermore, USACE stated in its comments on page 64
that “the estimator enters or loads the quantities of materials into the estimating
system and the computer program calculates and summarizes the remaining data.”
This explanation reinforces the statement in our report. The estimator loads
quantities into the system, and the system produces the estimate. We maintain
our opinion that the estimates were not an adequate tool to be the sole basis for a
price reasonableness determination.

The fact that the Government estimates are less detailed than the proposals and
cannot reasonably be directly compared to the proposals also reinforces our
conclusion about the reliability of the estimates. If the estimate and proposal
cannot reasonably be compared, it is not logical to conclude that the proposed
price is reasonable just because it is less than the estimated price.

        Paragraph IX Comments. USACE agreed that improvements in the
negotiating process for Afghanistan need to be made. However, it stated that the
draft report omitted several difficulties USACE encountered with negotiating a
fair and reasonable price, such as the changing Afghan economy and the
contractor having different information than the estimator. The comments also
stated that negotiations conducted from Winchester can be difficult and


                                     44
definitization of these task orders would have provided the needed knowledge
base for more efficient negotiations. USACE also stated that had the DoD OIG
reviewed the Pre-Negotiation Objective Memorandums along with the Price
Negotiation Memorandum that the report likely would have been less critical.

       Audit Response. The FAR requires that the Government obtain a fair and
reasonable prices on all contracts. We do not believe that the difficulties
associated with contracting in Afghanistan can be used to justify the price
reasonableness problems we found. USACE has admitted in its comments that
the Government estimates had numerous inherent limitations. As a result,
USACE should have known that the estimates were not reliable enough to be the
sole basis to determine that a price was reasonable.

The report identified numerous instances where the Government estimate was
woefully inadequate to prove that the price was reasonable. For example, the
Government estimate for a line item to clear a site was $95,962, while the
contractor’s proposed price was $1.6 million. The estimator admitted that his
estimate was just a guess, not based on facts or assumptions. The independent
Government cost estimates can be used as a tool to assist in price analysis.
However, we maintain that the limitations and other problems with the estimates
prevent them from being reliable enough to be the sole basis for a price
reasonableness determination. We agree with USACE that the task orders should
have been definitized in a more timely manner and pointed that out in the draft
report.

We did analyze the Pre-Negotiation Objective Memorandums, PNMs, and other
relevant documentation to reach our conclusions regarding price reasonableness.
We agree with USACE that the PNMs often lacked the relevant detail. The FAR
requires that all relevant information pertaining to the negotiation be documented
in the PNM, which USACE acknowledges was not done in some situations.
Furthermore, we attempted to review the Pre-Negotiation Objective
Memorandums with the PNMs but could not reconcile the differences. For
example, on task order 2 of Contract DACA78-03-D-0002, the Pre-Negotiation
Objective Memorandum stated that the price of the barracks could not be
determined because all this work was performed by a subcontractor and that no
evaluation could be performed at that time but additional information will be
requested and discussed during negotiations. However, the PNM did not indicate
that any further information was requested or analyzed and the Government
accepted the cost of the barracks as proposed.

TAC Legal Counsel Comments. The TAC legal counsel provided comments
dated July 22, 2005 relating to the potential Antideficiency Act violation, the
bona fide need, not definitizing task orders, and poor planning of task orders. Her
comments relating to the potential Antideficiency Act violation are addressed in
the “Recommendations, Management Comments, and Audit Response” section of
this report.

        Bona Fide Need. The TAC legal counsel stated that TAC met the
requirements of the bona fide need rule. The legal counsel argued that the bona
fide need rule only requires that the need for which the funds were obligated
existed during the year of obligation. Therefore, since the need for the modular


                                    45
housing existed during FY 2003, it was appropriate to award the task order at the
end of FY 2003 using expiring funds. The legal counsel also noted that whether
or not a requirement is urgent is not relevant to the bona fide need rule.

TAC legal counsel also contended that the task order’s option items did not
violate the bona fide need rule, because the options had not been exercised and
therefore had not been funded. The legal counsel also addressed the statement in
the draft report that “one of the option items, valued at $2.2 million, was not
scheduled to be completed until 13 months had elapsed, which extended beyond
the 12-month criteria.” The legal counsel stated that there was no option item to
task order 14 which met that description. It was also noted that the applicable
criteria for severable services was 10 U.S.C. 2410(a) rather than 41 U.S.C. 253(l),
and again noted that funds are not obligated for an unexercised option.

      Audit Response. We considered the USACE position on this issue and
removed the discussion of the bona fide need rule from the report.

       Improper Use of Undefinitized Contract Actions and
Cost-Plus-A-Percentage-of-Cost Contracting. The TAC legal counsel took
exception to the DoD OIG basing its report on defining task orders and the
corresponding modifications as “Undefinitized Contract Actions,” instead of as
“Unpriced Change Orders.” TAC stated that it interpreted an unpriced task order
to be more like an unpriced change order as discussed in the Engineering FAR
Supplement.

In addition, the TAC legal counsel stated that the four contract actions we
identified as CPPC did not function as CPPC because the profit rate for the
actions was not predetermined, and therefore there was no predetermined rate
applied to actual costs. As a result, two of the four criteria that a contract be
considered CPPC were not met. The counsel also stated that “after-the-fact
pricing” does not violate the CPPC statute when there is no agreement between
the contracting parties that any fixed percentage will be applied to incurred costs
in negotiating the price. This section of the report is now titled “Incentive to
Increase Costs.”

         Audit Response. We considered the USACE position regarding the term
“undefinitized contract action” did not apply to the task orders awarded under
Contract DACA78-03-D-002. We revised this section of the report and changed
the title of this section to Negotiating Prices. The previous enclosure to the
management comments provided by the USACE acknowledged that
improvements to the negotiation process of unpriced task orders were needed.

We considered the USACE position that the four contract actions the report
identified as CPPC did not meet the legal definition of CPPC. We revised this
section of the report to explain that the four contract actions gave the contractors
an incentive to increase costs, even though the actions could not legally be
classified as CPPC.

        Poor Planning of Task Orders Comments. The TAC legal counsel
stated that any possible poor planning that existed on the task orders discussed in
the report did not lead to any known violation of law or regulation. Specifically,


                                     46
regarding contract W912ER-04-D-0003, task order 7, she stated that the draft
report acknowledged that the requirement had become urgent by July 2004, when
it was discovered that no other appropriate contract vehicle was available. She
also stated that FAR 16.505(b)(2) authorizes exceptions to fair opportunity when
providing a fair opportunity would result in unacceptable delays.

The TAC legal counsel stated that USACE could not have placed contract
W912ER-04-D-0003, task order 8 on the May 2004 task order because the project
was not authorized at that time. She stated that the urgent need to construct the
ammunition supply point arose as a result of a July 2004 decision by the customer
to construct a new runway in the path of the existing ASP. Furthermore, approval
from the Under Secretary of Defense (Comptroller)/Chief Financial Officer to
execute the ASP project was not received until September 28, 2004.

The TAC legal counsel stated that poor planning did not exist for contract
W912ER-04-D-0004, task order 6, modification 2, and that TAC properly
responded to customer-directed changes. She stated that the draft report
demonstrated confusion regarding the chronology of events relating to this task
order; specifically she noted that the report referred to a document labeled
“change order” as a change order, when this document was actually just a
budgetary rough order of magnitude estimate submitted by the contractor. She
summarized the chronology of events: On July 19, task order 6 was awarded; on
August 27, TAC issued a request for proposal for six additional buildings and
supporting utilities and improvement; on September 15, the budgetary ROM
estimate was submitted; on September 29, modification 2 was issued for the
additional buildings. She also argued that the justification cited for awarding the
modification for the six new buildings noncompetitively (FAR 16.505(b)(2)(i)-
urgent agency need) was actually not applicable because it was a modification
and not a task order. Further, she stated that all of the buildings to be constructed
on this task order (including the buildings on modification 2) were needed for the
project to be a “complete and usable facility.” Finally, the counsel stated that all
of these buildings represented a need in FY 2004 and therefore met the
requirements of the bona fide needs rule.

        Audit Response. The TAC legal counsel stated that our draft report
acknowledges that Contract W912ER-04-D-0003, task order 7 became urgent in
July 2004 when it was discovered that no other contract vehicle was available.
That statement is not correct. We stated that the requirement became urgent in
July 2004 because of mistakes made by USACE personnel in May 2004. Because
the contracting officer did not know the geographic scope of work of the single
award and began procedures to use this contract, and only then later determined
that this contract could not be used outside of Afghanistan, the requirement
became urgent unnecessarily.

This lack of knowledge and lack of prudent business sense on the part of USACE
caused the task order to become urgent in July 2004, not because it was the only
contract vehicle available. Moreover, if USACE ceased to use the single contract
award, as we recommended, the confusion over geographic scopes of work would
be eliminated.




                                     47
TAC disagreed with our statement on the non-competitive award for task order 8
of Contract W912ER-04-D-0003. We still believe that this task order should have
been incorporated in the planning for task order 3 of the same contract. That task
order was competitively awarded for the design and build of a runway and
taxiways, repairs, and construction of parking aprons at the Bagram Air Base,
Afghanistan. We believe that the planning for that task order should have
determined that the ammunition supply point would have to be relocated. In fact,
the contractor was required to demine the area of the existing ammunition supply
point as part of the work on the previous task order. Had this project been part of
the previous task order, the relocation of the ammunition supply point could have
been part of the competitively award task order instead of a sole-source
acquisition.

Furthermore, the TAC argument that the requirement did not arise until July of
2003 would not justify an urgent sole source award at the end of the fiscal year
anyway. If the need for the task order arose in July, there was still enough time to
award a competitive task order before the end of September. The fact that
approval to award the project was not received from Under Secretary of Defense
(Comptroller)/Chief Financial Officer until September 28 also does not justify the
sole source award. TAC knew it would have this authority prior to September 28,
evidenced by the fact that TAC sent the request for proposal to the contractor on
September 17. With proper planning the award could have been made
competitively.

TAC disagreed with our statement regarding poor planning for modification 2,
task order 6 of Contract W912ER-04-D-0004. TAC stated that we misinterpreted
contract-related documentation and the phasing of the work to be accomplished
under the task order. We disagree. We accurately reported on the documentation
that was provided in the contract file including the justification not to compete the
modification; we clarified the report to show that the document labeled “change
order” was a budgetary ROM. Furthermore, the legal counsel stated that task
order 6 including the modifications should be considered a single project
producing a complete usable facility. If this were the case, then that modification
should have been incorporated with the original requirement and should have then
been part of the competitive process for the award of the task order. It was not, it
was placed on the task order as a modification for additional buildings. We still
believe that this requirement, especially after it was postponed until the spring,
should have been canceled and competed using the multiple award contract
vehicle.




                                     48
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
  Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation

Department of the Army
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. Central Command

Other Defense Organizations
Director, Defense Contract Audit Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          49
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Subcommittee on Military Construction, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Subcommittee on Military Construction, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        50
U.S. Army Corps of Engineers Comments




                     51
52
53
54
55
56
57
58
59
60
     Final Report
      Reference




     Revised
     page 21




61
62
63
64
65
Final Report
 Reference




Deleted




Deleted




               66
     Final Report
      Reference




     Deleted




     Deleted




     Deleted




     Deleted




67
Final Report
 Reference




Deleted




Deleted




Deleted




Deleted




Deleted



Deleted




               68
     Final Report
      Reference




     Revised
     Page 26
     Page 20




     Revised
     Page 26




     Revised
     Page 26




     Revised
     Page 26




     Revised
     Page 26




69
Final Report
 Reference




Revised
Page 26




Revised
Page 26




Revised
Page 26




Revised
Page 26




Revised
Page 26




               70
     Revised
     Page 20




     Revised
     Page 20




     Revised
     Page 20




71
72
     Final Report
      Reference




     Revised
     page 18




73
74
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Terry L. McKinney
Nick E. Como
John A. Seger
David P. Goodykoontz
Stacie A. Rimmer
Julie A. Yerkes
Jonathan P. Hale
Courtney V. Biggs
Meredith H. Johnson
